<html>
<title> - THE PUTIN ADMINISTRATION'S POLICIES TOWARD NON-RUSSIAN REGIONS OF THE RUSSIAN FEDERATION</title>
<body><pre>[Senate Hearing 107-126]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 107-126

                   THE PUTIN ADMINISTRATION'S POLICIES
                     TOWARD NON-RUSSIAN REGIONS OF
                         THE RUSSIAN FEDERATION

=======================================================================

                                HEARING

                               BEFORE THE

                     COMMITTEE ON FOREIGN RELATIONS
                          UNITED STATES SENATE

                      ONE HUNDRED SEVENTH CONGRESS

                             FIRST SESSION

                               __________

                              JULY 18, 2001

                               __________

       Printed for the use of the Committee on Foreign Relations


 Available via the World Wide Web: http://www.access.gpo.gov/congress/
                                 senate


                   U.S. GOVERNMENT PRINTING OFFICE
75-011                     WASHINGTON : 2001


                     COMMITTEE ON FOREIGN RELATIONS

                JOSEPH R. BIDEN, Jr., Delaware, Chairman
PAUL S. SARBANES, Maryland           JESSE HELMS, North Carolina
CHRISTOPHER J. DODD, Connecticut     RICHARD G. LUGAR, Indiana
JOHN F. KERRY, Massachusetts         CHUCK HAGEL, Nebraska
RUSSELL D. FEINGOLD, Wisconsin       GORDON H. SMITH, Oregon
PAUL D. WELLSTONE, Minnesota         BILL FRIST, Tennessee
BARBARA BOXER, California            LINCOLN D. CHAFEE, Rhode Island
ROBERT G. TORRICELLI, New Jersey     GEORGE ALLEN, Virginia
BILL NELSON, Florida                 SAM BROWNBACK, Kansas
JOHN D. ROCKEFELLER IV, West         MICHAEL B. ENZI, Wyoming
    Virginia

                     Edwin K. Hall, Staff Director
            Patricia A. McNerney, Republican Staff Director

                                  (ii)

  


                            C O N T E N T S

                              ----------                              
                                                                   Page

Balzer, Dr. Marjorie M., research professor and coordinator of 
  Social, Ethnic, and Regional Issues, Center for Eurasian, 
  Russian, and East European Studies (CERES), Georgetown 
  University, Washington, DC.....................................    22
    Prepared statement...........................................    25
Dunlop, Dr. John B., senior fellow, Hoover Institution on War, 
  Revolution, and Peace, Stanford University, Stanford, CA.......    15
    Prepared statement...........................................    18
Goble, Paul A., director, Communications Department, Radio Free 
  Europe/Radio Liberty, Washington, DC...........................    31
    Prepared statement...........................................    35
Helms, Hon. Jesse, U.S. Senator from North Carolina, prepared 
  statement......................................................     3
Solnick, Dr. Steven L., associate professor of Political Science, 
  Columbia University, New York, NY..............................     5
    Prepared statement...........................................     8

                                 (iii)

  

 
 THE PUTIN ADMINISTRATION'S POLICIES TOWARD NON-RUSSIAN REGIONS OF THE 
                           RUSSIAN FEDERATION

                              ----------                              


                        WEDNESDAY, JULY 18, 2001

                                       U.S. Senate,
                            Committee on Foreign Relations,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 10:30 a.m., in 
room SD-419, Dirksen Senate Office Building, Hon. Joseph R. 
Biden, Jr. (chairman of the committee) presiding.
    The Chairman. I thank my colleague, Senator Helms, and the 
distinguished witnesses we have today for their patience. The 
Amtrak Metroliner was 20 minutes late today, and I do 
apologize.
    Today we will consider the topic that is fundamental to an 
understanding of the Russian Federation, that is the policy of 
the Moscow-based Federal Government toward the non-Russian 
regions of the country.
    Russia, as everyone knows is, in geographical terms, by far 
the largest country in the world. East to west, it spans 11 
time zones. North to south, it goes from the frozen Arctic 
Tundra to the subtropical Black Sea coast. In terms of 
nationality, the Russian Federation is equally diverse. 
Although the breakup of the Soviet Union in December 1991 
removed huge blocks of non-Russian peoples from Moscow's rule, 
nearly 19 percent of the Russian Federation's population 
remains non-Russian, and their birthrate exceeds the Russian.
    Many of these nationalities have small populations. Others, 
like Tatars and Ukrainians, still number in the millions within 
the borders of the Federation, but there is not necessarily a 
direct correlation between their population size and their 
importance to the Kremlin. The Yakut population of Sakha in 
eastern Siberia is relatively small, but their vast homeland 
contains extremely valuable natural resources. More well known 
has been the ability of the Chechens, a small group of people 
in the Caucasus, to bring the entire Russian military machine 
to its knees.
    Our distinguished witnesses today will examine how the 
Putin administration's policies toward the one-fifth of its 
citizens that is ethnically non-Russian differs or, in some 
respects, resembles pre-1991 Soviet nationalities policies. 
This hearing is the first in a series that the full committee 
plans to hold on what we are terming ``Putin's Russia.'' Later 
this summer and in the fall, we will hold hearings on political 
conditions, on economic reform, on civil society, culture, and 
religious life, and on Russia's foreign policy.
    Throughout my 29 years in the Senate, I have consistently 
maintained that there is no international relationship, no 
bilateral relationship, more important to the United States 
than that with Russia. Much has changed in Russia since the 
collapse of the Soviet Union, but I believe the importance of 
the bilateral relationship endures. I hope today's hearing will 
constitute an outstanding beginning for an important new 
venture on this hearing regime that we plan on moving forward 
with.
    I now yield to my friend, and again apologize to him for 
keeping him waiting.
    Senator Helms. Mr. Chairman, to the contrary, I genuinely 
appreciate your scheduling this meeting. We had requested this.
    And before I begin, let me point out, as I have done many 
times, that this committee welcomes the young people who attend 
these hearings. We have several in the back there and I want to 
be sure that they can hear what's going on? Nod if you can. Do 
you want us to cut it off?
    No. Well, you are welcome. And these witnesses are great 
patriots, and they have done a great deal of work on the 
subject, as you will understand as they proceed. Now, I 
welcome, of course, the four people there, the lady and three 
gentlemen. I'm grateful for the enormous amount of research and 
writing that every one of you has contributed to the field of 
Russian studies and U.S./Russian relations. And I am certainly 
aware that some, if not all, of you have traveled to Washington 
from all parts of America to share with us this morning your 
views regarding relations between the Kremlin and the 
Federation's non-Russian regions.
    Now, how the Kremlin addresses the cultures and potentials 
and grievances and aspirations of its non-Russian peoples is 
not merely a measurement of the state of democracy in Russia, 
or the lack thereof. What the Kremlin does also affects the 
evolution and long-term prospects of democratic reforms in that 
country. Repression and political and cultural heavy-handedness 
can unavoidably leave the non-Russian populations of the 
Russian Federation disenfranchised and resentful, and that is 
an obvious recipe for unrest and instability, both within and 
beyond the Federation's borders.
    Nowhere has this been more evident than in Chechnya, where 
President Putin continues to execute a savage, indiscriminate 
war against the Chechen people. This bloodthirsty campaign 
includes a systematic and obvious effort to strip Chechnya of 
its cultural heritage. Russian forces have obliterated Chechen 
religious and historic sites in an effort to transform Chechnya 
into a physical and cultural wasteland.
    Since 1999, Russian forces have caused the deaths of more 
than 30,000 non-combatants. The dislocation of 600,000 
civilians has been caused by the Russian forces, as well as the 
illegal incarceration of 20,000 Chechens, of which the Russian 
forces boast. They brag about that. And the countless reports 
of rape and torture and summary executions committed by the 
Russian forces complete this ugly scenario. And all this bloody 
carnage has been imposed upon a population of just one million 
people. Today, the vicious Putin war in Chechnya continues 
unabated with no inclination even to try to bring this tragic 
war to a negotiated and peaceful end.
    For a comparative measure of what Mr. Putin has done in 
Chechnya, one has only to look to Kosovo where Milosevic's 
ethnic cleansing has caused at least 10,000 deaths--at least 
10,000--and the illegal detention and torture of thousands of 
Albanians.
    So, Mr. Chairman, this hearing is well timed. And, again, I 
appreciate your scheduling it, because 3 days from now, on 
Friday, the G-7 will meet in Genoa, Italy. The G-7 leaders are 
certain to celebrate the recent incarceration of Mr. Milosevic; 
and when they do, I prayerfully hope that, when they sit across 
the table from the Russian President in the so-called G-8 
summit, they will not forget that Mr. Putin's unjustified war 
against the Chechen people has been far more savage and far 
more devastating than the destruction Milosevic--bad as he is, 
and he is terrible--has wreaked upon Kosovo.
    As today's witnesses are, no doubt, aware, the Union of 
Councils for Soviet Jews has issued a report documenting 
official discrimination and mistreatment of Chechens throughout 
the Russian Federation. The report makes a simple, but 
profound, point: If a government mistreats one ethnic or 
religious group, that same government is likely to subject 
other groups to similar persecution in the future. In light of 
what is happening in Chechnya, that is spine-chilling.
    I ask that the balance of my statement be made a part of 
the record, and I thank the Chair.
    [The prepared statement of Senator Helms follows:]

                 Prepared Statement of Hon. Jesse Helms

    Mr. Chairman, I genuinely appreciate your accommodating our request 
to schedule this hearing this morning.
    Obviously, I, too, welcome the members of our panel to this 
morning's session of the Senate Foreign Relations Committee.
    I am grateful for the enormous amount of research and writing each 
of you has contributed to the field of Russian studies and U.S.-Russian 
affairs. I am certainly aware that some of you have traveled to 
Washington from all parts of the country to share with us this morning 
your views regarding relations between the Kremlin and the Federation's 
non-Russian regions.
    How the Kremlin addresses the cultures, potentials, grievances and 
aspirations of its non-Russian peoples is not merely a measurement of 
the state of democracy in Russia or lack thereof; what the Kremlin does 
also affects the evolution and long-term prospects of democratic reform 
in that country.
    Repression and political and cultural heavy-handedness can 
unavoidably leave the non-Russian populations of the Russian Federation 
disenfranchised and resentful--and that is an obvious recipe for unrest 
and instability both within and beyond the Federation's borders.
    Nowhere has this been more evident than in Chechnya, where 
President Putin continues to execute a savage, indiscriminate war 
against the Chechen people. This blood thirsty campaign includes a 
systematic, and obvious, effort to strip Chechnya of its cultural 
heritage. Russian forces have obliterated Chechen religious and 
historic sites in an effort to transform Chechnya into a physical and 
cultural wasteland.
    Since 1999, Russian forces have caused the deaths of more than 
30,000 non-combatants, the dislocation of 600,000 civilians, and the 
illegal incarceration of 20,000 Chechens of which the Russian forces 
boast. The countless reports of rape, torture and summary executions 
committed by Russian forces complete this ugly scenario.
    All this bloody carnage has been imposed upon a population of just 
one million people. Today, the vicious Putin war in Chechnya continues 
unabated, with no inclination to even try to bring this tragic war to a 
negotiated and peaceful end.
    For a comparative measure of what Mr. Putin has done in Chechnya, 
one only has to look to Kosovo were Slobodan Milosevic's ethnic 
cleansing has caused at least 10,000 deaths and the illegal detention 
and torture of thousands of Albanians.
    So Mr. Chairman, this hearing is well timed. Three days from now, 
on Friday, the G-7 will meet in Genoa, Italy. The G-7 leaders are 
certain to celebrate the recent incarceration of Mr. Milosevic.
    When they do, I prayerfully hope that when they sit across the 
table from the Russian President in the so-called G-8 summit, they will 
not forget that Mr. Putin's unjustified war against the Chechen people 
has been far more savage and devastating than the destruction Milosevic 
has wreaked upon Kosovo.
    As today's witnesses are no doubt aware, the Union of Councils for 
Soviet Jews has issued a report documenting official discrimination and 
mistreatment of Chechens throughout the Russian Federation. The report 
makes a simple, but profound point: If a government mistreats one 
ethnic or religious group, that same government is likely to subject 
other groups to similar persecution in the future.
    In light of what is happening in Chechnya today, that is 
spinechilling.
    We have genuine humanitarian and strategic interest in this 
conflict. The West, including the United States, should apply all the 
political and economic leverage that can be mustered to encourage, and 
if necessary leverage, President Putin to peacefully and immediately 
end the war in Chechnya.
    This war is not only perpetuating and exacerbating a humanitarian 
crisis, it is sowing the seeds of hatred that will poison relations 
between the Kremlin and the Federation's non-Russian peoples for 
generations to come. Each day this war proceeds, it further harms the 
prospects for democracy and rule of law in Russia.
    For all these reasons, I look forward to the testimonies of our 
witnesses. I know they will share with us their insights into what 
President Putin's treatment of Chechnya portends for Russia's struggle 
to evolve into a stable democracy.

    The Chairman. Without objection, it will be. And I might 
add that the reason we are having this hearing today, and the 
reason we have started with Chechnya is because of the 
distinguished Senator from North Carolina and his intense 
interest and his request that this be done, and I happen to 
agree with him.
    Senator Lugar, would you like to make an opening statement?
    Senator Lugar. No, thank you, Mr. Chairman. I look forward 
to hearing the witnesses.
    The Chairman. Let me say a brief word about our witnesses 
today. We are fortunate today having four of this country's 
outstanding experts on the nationalities of the Russian 
Federation. In the interest of time, I am not going to recount 
their impressive professional histories, except to say that the 
witnesses represent three leading American universities--
Columbia, Georgetown, and Stanford--as well as Radio Free 
Europe/Radio Liberty, an indispensable broadcasting and 
research organization.
    I am told that there has been some prehearing coordination 
among the witnesses and with the committee's staff, so we will 
proceed in the order that they have suggested.
    We will begin with Dr. Solnick, associate professor of 
Political Science at Columbia University; then Dr. Dunlop, a 
senior fellow at the Hoover Institution on War, Revolution, and 
Peace at Stanford University; and Dr. Balzer, research 
professor and coordinator of Social, Ethnic, and Regional 
Issues in the Center for Eurasian, Russian, and East European 
Studies at Georgetown University; and an old friend--and it is 
good to see you again, Paul--Mr. Paul Goble, who is the 
Director of the Communications Department of Radio Free Europe/
Radio Liberty, here in Washington.
    So if we begin in that order, I would appreciate it, and we 
will hear all of your testimonies, and then we will move to 
questions. Thank you.

  STATEMENT OF DR. STEVEN L. SOLNICK, ASSOCIATE PROFESSOR OF 
      POLITICAL SCIENCE, COLUMBIA UNIVERSITY, NEW YORK, NY

    Dr. Solnick. Thank you Mr. Chairman, Senator Helms, members 
of the committee, I would like to thank you for inviting me to 
address this topic this morning. It is a great privilege to be 
here.
    When many observers of Russia think of policy toward non-
Russians in the Russian Federation, the first image that does 
come to mind is of the senseless carnage in Chechnya. Russia's 
war there, of course, has been cruel beyond measure, as Senator 
Helms was just commenting, and it has taken a heavy toll on 
both Russian and Chechen lives. In my remarks this morning, 
however, I would like to try and place Chechnya in context. I 
would like to discuss how the Federal Government, beyond 
Chechnya, in Russia, has fashioned a surprisingly effective 
policy of carrots and sticks aimed at holding together the 
multi-ethnic patchwork inherited from the Soviet Union. I will 
suggest the deadlock and violence that has characterized the 
Chechen conflict almost from the start are the exception rather 
than the rule in Russian regional politics today.
    Throughout much of the rest of Russian Federation, non-
Russian enclaves continue to be recognized by the Russian 
constitution despite their dubious historical and demographic 
foundations, and non-Russian elites continue to enjoy 
significant power and prestige within the Russian Federal 
structure. Ironically, the disconnectedness of the Chechen 
problem from the rest of regional policy in Russia today simply 
underscores the pointlessness of the war in Chechnya.
    In the prepared statement I brought to the committee, I 
have tried to provide some details of the Soviet origins of 
Russia's Federal structure, Yeltsin's policy of cooptation, 
Putin's steps toward recentralization. Rather than summarize 
those remarks here, though, I would like to focus on just three 
main points, and to make them a bit livelier, I would like to 
present three common misconceptions about non-Russians in the 
Russian Federation.
    First, as you all know, Chechnya is just one of 21 
autonomous republics within the Russian Federation. Russia 
inherited a complex Federal structure from the Soviet Union: 21 
republics, 11 autonomous districts, and 57 other predominantly 
Russian administrative units known as oblasts or krais. This 
Federal structure is a direct legacy of Bolshevik nationality 
policy which had declared that each of the major ethnic groups 
in the Soviet Union had its own homeland within the Soviet 
federation; but, of course, the centralized institution of the 
Communist Party made that federation something of a sham.
    When the Communist Party collapsed at the end of the 
1980's, however, the leaders of these ethnic republics within 
Russia found themselves in a position to play Boris Yeltsin off 
against Mikhail Gorbachev to win concessions for themselves. 
And ultimately, in a phrase he would come to regret, Yeltsin 
told the leaders of the ethnic enclaves to ``take as much 
sovereignty as you can swallow,'' and he preserved their 
special status in a Federal treaty in 1992 and subsequently in 
the Russian Constitution of 1993. The resulting state 
structure, in the words of one Russian observer, left 23 
million Russians living in a federation--that's the ethnic 
enclaves--and 124 million living in a unified state.
    Now, a common misconception about this period, however, the 
late 1980's and early 1990's, is that these ethnic territories 
were hotbeds of separatism during this period. With the notable 
exception of Chechnya--and even that is a qualified exception--
none of the leaders of these ethnic republics demanded 
independence from Russia during this period. Instead, what they 
demanded was higher status and special privileges within the 
Russian Federation. Furthermore, it is even misleading to speak 
of these republics as non-Russian territories. A single non-
Russian nationality comprises an absolute majority in just five 
of the 21 republics; and in 12 of them, Russians are the 
largest ethnic group.
    A second misconception concerns the relationship between 
Yeltsin and the leaders of these republics under the 1993 
constitution. Once that constitution was ratified, Yeltsin 
began signing additional bilateral agreements, commonly 
referred to as ``treaties,'' with the leaders of several 
republics. The first of these, with Tatarstan, granted the 
Tatars constitutional and fiscal privileges that offended many 
of the Russian regional leaders in the oblasts. It also opened 
the floodgates to similar deals with other leaders of 
republics. The failure to agree on a similar treaty with 
Chechnya helped trigger the first Chechen war.
    The misconception about this period, in my opinion, is that 
Yeltsin and the Federal Government were essentially powerless 
to resist the regional elites during the 1990's. In fact, I 
believe, the Federal Government was employing a rather 
sophisticated strategy of coopting individual regional leaders 
through selective distribution of economic and political 
benefits. The scheme was improvised, and it was complex. For 
instance, when interbudgetary transfers became more 
transparent, under pressure from the IMF, the Federal 
Government shifted to delivering subsidies within the Federal 
budget by paying some regional debts on time and leaving others 
unpaid. Eventually, the potential for solidarity among regional 
leaders in the Federation to oppose the Federal Government was 
eroded by this divide-and-rule strategy employed by the 
Kremlin.
    Eventually, as the Kremlin began signing treaties with 
oblasts as well as republics, the Russian/non-Russian 
distinction began to lose its importance within the Federation. 
And by the time of the 1999 elections, when regional leaders 
tried and failed to create a political party to capture the 
Federal Government, the most important division among regions 
within the Russian Federation was between rich and poor, not 
between Russian and non-Russian.
    That brings me to the final misconception I wish to 
address, that Vladimir Putin has launched a campaign of re-
centralization at the expense of regional power. It is 
certainly true that one of the first issues addressed by Putin 
after becoming President in March 2000 was the strengthening of 
the ``vertical of Federal control,'' as he put it. There were 
three main components to this. First, under the reform of the 
Federation Council, regional Governors, both Russian and non-
Russian, no longer automatically sit in the Council; and the 
Council is, in effect, Russia's Senate. Second, under a new 
procedure for removing elected regional officials, Putin can 
dismiss regional Governors or republic Presidents who issue 
decrees in violation of the Federal constitution or who face 
criminal charges. Finally, a new districting plan has created 
seven super-regions headed by Presidential representatives 
whose job it is to ensure that Federal laws take precedence 
over regional laws. Five of the seven men that Putin has 
appointed to be these representatives in these regions come 
from the KGB and the military.
    While Putin is certainly keen on strengthening vertical 
accountability within Federal institutions, however, he has 
continued Yeltsin's strategy of coopting regional leaders 
wherever and whenever possible. He has changed Federal law to 
allow certain regional leaders, including the President of 
Tatarstan, to run for third or even fourth terms. He has 
limited success in promoting his own candidates in 
gubernatorial races, ultimately working with, rather than 
defeating, financial and industrial elites in the more powerful 
territories.
    In the sole instance where he forced a corrupt Governor out 
of office, he did so not by invoking his new powers to fire the 
Governor, but by offering him a powerful and lucrative job as 
head of the Federal Fisheries Committee. That is Yevgenii 
Nazdratenko in Primorskii Krai. So while Putin's team has 
prosecuted a number of deputy Governors on corruption charges, 
he, the President, and his seven envoys have not moved to 
redistribute property at the regional level in any meaningful 
way. And so the political and economic machines remain intact.
    By allowing non-Russian elites in these republics to 
preserve their political, economic, and media power bases in 
the regions, he has reduced the level of center-regional 
conflict significantly since coming to power, and he has 
assembled a regional consensus behind his drive to consolidate 
power at the center.
    This should not be confused with democracy or federalism as 
we know it. The emerging political structure in Russia 
preserves the power of elites, in large part by 
disenfranchising large segments of society, undermining civil 
rights, and curtailing media freedoms. What I want to suggest 
here is that this project has lately become a cooperative 
effort, by Federal and regional elites, Russian and non-
Russian, rather than a project directed by the Federal leaders 
against regional leaders.
    One concluding thought. The emerging consensus between 
Federal and regional elites over the nature of the Russian 
state only deepens the tragedy of Chechnya. There can be and 
should be no illusion that the Russian Government's actions in 
Chechnya are necessary or even useful for preserving the 
territorial integrity of Russia. The Russian Army is not making 
an example of Chechnya for the benefit of other non-Russian 
regional leaders. Those leaders have long since made their 
peace with the Kremlin. As an antiterrorism campaign, the 
second Chechen war has been counterproductive; but, even worse, 
as a political statement, it has been pointless. As it has been 
for over a century, Chechnya remains a special case in Russia, 
and it merits a special solution to end the conflict there.
    Let me thank you again for the invitation to appear, and I 
look forward to the discussion.
    [The prepared statement of Dr. Solnick follows:]

              Prepared Statement of Dr. Steven L. Solnick

    Mr. Chairman, thank you for the invitation to discuss the current 
state of Russian policy toward the non-Russian republics of the Russian 
Federation. It is a great privilege to appear before this committee.
    The post-Soviet Russian Federation--with its vast territorial 
scope, complex political structure and volatile ethnic mix--faces 
state-building challenges that should not be underestimated. Over the 
last 7 year as, much of the world's attention has focused on Russia's 
brutal and senseless war in Chechnya as the most visible symbol of 
Moscow's continuing oppression of non-Russian minorities on Russian 
territority. While the carnage in Chechnya merits this scrutiny on its 
own terms, it would be a mistake to treat Chechnya as either an example 
or a harbinger of Russia's broader policy toward its non-Russian 
regions.
    In my statement today, I will attempt to place Chechnya in context. 
I will suggest that the irreconcilable differences and endemic violence 
that has characterized the Chechen conflict almost from the start are 
the exception rather than the rule in Russian regional politics today. 
Throughout much of the rest of Russia, non-Russian enclaves continue to 
be recognized by the Russian constitution, despite their dubious 
historical and demographic foundations, and non-Russian elites continue 
to enjoy significant power and prestige within the federal structure. 
Ironically, the disconnectedness of the Chechen problem from the rest 
of regional policy in Russia today simply underscores the pointlessness 
of that bloody conflict.
    I will begin by briefly reviewing the origins of the ``republics'' 
that survive as non-Russian enclaves in modern Russia, and sketching 
the outlines of Yeltsin's strategy of co-opting regional elites--
Russian and non-Russian alike. I will then discuss in a bit more detail 
Putin's attempts to recentralize the federal structure, with particular 
attention to implications for the non-Russian regional elites. I will 
conclude with a few thoughts about the future of Russia's federal 
system and the significance of the Chechen wars.

             ROOTS OF RUSSIA'S ASYMMETRIC FEDERAL STRUCTURE

    The federal structure of the Soviet state was based upon a detailed 
hierarchy of federal sub-units: 15 union republics, contained 20 
autonomous republics and over 120 administrative-territorial 
``oblasts'' and ``krais.'' As a legacy of Bolshevik nationality policy, 
it was a multi-ethnic federation in which major ethnic groups were 
associated with particular national ``homelands'' that received varying 
degrees of formal self-rule and cultural autonomy. In reality, however, 
Russians constituted the majority in many of these autonomous 
``ethnic'' territories, and the Russian-dominated Communist Party never 
sacrificed its absolute control.
    In June 1990, the Russian Federations newly elected legislature 
followed the lead of the Caucasian and Baltic republics and declared 
Russia to be ``sovereign.'' The most important implication of this 
declaration was that Russia's laws were to take precedence over Soviet 
laws, and that Russia was to control the disposition of natural 
resources on her territory.
    This action was quickly mimicked by the 16 ``autonomous republics'' 
within the borders of the Russian Federation, eager to seize the 
opportunity to gain greater control over their own affairs. Yeltsin 
encouraged them, reluctant to provide Gorbachev with any precedent for 
recentralization; in August 1990, he famously told the leaders of the 
republics to ``take as much autonomy as you can swallow.'' By October 
of 1990, eleven of these sixteen republics had passed their own 
sovereignty declarations, and by the beginning of 1991 all had followed 
suit. This ``parade of sovereignties'' appeared at the time--and has 
been interpreted since--as a direct threat to the territorial integrity 
of Russia, though the declarations generally stopped short of declaring 
``independence'' from Russia.
    Viewed in their historical context, the sovereignty declarations 
were actually quite limited. In April 1990, the all-Union Supreme 
Soviet had passed a law intended to serve as the blueprint for a new 
Federal Treaty sought by Gorbachev. According to the new law, the 
``autonomous'' republics were granted equal status to union republics 
in the economic and socio-cultural spheres, and were instructed to sign 
bilateral and multilateral ``treaties'' with their parent union 
republics to clarify the consensual nature of their subordination. 
Perhaps most important, the autonomous republics were invited to take 
their seats alongside the union republics as equal parties in 
negotiating the new Federal Treaty to preserve the Soviet Union.
    Thus, the sovereignty declarations of the autonomous republics 
appear to be an attempt to upgrade their status within a federal 
structure rather than any bid to leave a federal structure. The 
omission of any mention of Russia in Tatarstan's declaration, for 
instance, which is often taken as a sign of Tatar separatism, is more 
accurately seen as a bid for Tatarstan to join the new Soviet 
federation on equal footing with Russia. Yeltsin's encouragement of 
these declarations was a clear attempt to outbid Gorbachev; Yeltsin 
proposed his own ``Union Treaty'' in January 1991 in an attempt to 
foreclose Gorbachev's options.
    For their part, the autonomous republics were able to goad the 
Russian and Soviet governments into a high stakes bidding war. In 1990, 
for instance, Yeltsin promised the government of Sakha/Yakutia, home to 
most of the Soviet Union's diamonds, that it could keep a share of its 
diamonds for independent sale. Sakha subsequently accepted Russian 
sovereignty and ceased diamond shipments through Soviet channels. 
Eleven regions sought and received ``free enterprise zone'' status, 
offering tax and regulatory concessions. Tatarstan, for its part, began 
negotiating a bilateral treaty with the Russian Federation, as dictated 
by the April 1990 law.
    The abortive coup of August 1991 put an abrupt end to the bidding 
free-for-all. The December 1991 agreements establishing the 
Commonwealth of Independent States effectively ended any hope for a 
confederation retaining a Soviet center. From this point on, the 
Russian government bargained directly with provincial leaders over the 
institutions of the new Russian state.

                       YELTSIN'S REGIONAL POLICY

    When Russia became independent at the end of 1991, it consisted of 
twenty-one autonomous regions (all but one of these were ultimately 
reclassified as autonomous republics), ten autonomous okrugs, and 57 
additional administrative units (oblasts, krais, and federal cities) 
for a total of 88 subnational units. While the Soviet state had 
accorded ``autonomous'' status to regions based on their designation as 
national homelands for specific ethnic groups, these subnational units 
did not represent indigenous islands in a Russian sea. On the contrary, 
Russians constituted a plurality of the population in twelve of the 
``ethnic'' republics, and an absolute majority in nine of these. In 
only five republics did a single titular nationality comprise an 
absolute majority of the population. The national composition of the 
republics is shown in Table 1.

       Table 1: Ethnic Characteristics of Republics (c. 1992) \1\


----------------------------------------------------------------------------------------------------------------
                                              Pop.
                Territory                    (,000)     % Russian        % Titular (and Other) Nationality
----------------------------------------------------------------------------------------------------------------
Dagestan.................................      2,098         9.2   Avar 28%, Dargin 16%, Kumyk 13%, Legzin 11%,
                                                                    etc.
Ingushetia...............................        304        13,3   74.5
Chechnya (Ichkeria)......................        862        24.8   66.0 (NB: Pre War figures)
Chuvashia................................      1,338        26.7   67.8
North Ossetia............................        664        29.9   53.0
Tuva.....................................        309        32.0   64.3
Kabardino-Balkaria.......................        790        32.0   Kabardin-48.2/Balkar-9.4
Kalmykia.................................        318        37.7   45.4
Bashkortostan............................      4,080        39.3   21.9 (Tatar: 28.4)
Karachai-Cherkessia......................        436        42.4   Karachai-31.2/Cherkess-9.7
Tatarstan................................      3,642        43.3   48.5
Mari-El..................................        764        47.5   43.3 (Tatar 6)
Sakha....................................      1,094        50.3   33.4
Komi.....................................      1,172        57.7   23.3 (Ukranian 8.3)
Udmurtia.................................      1,640        58.9   30.9 (Tatar 6.9)
Altai Repub..............................        202        60.4   31.0
Mordovia.................................        950        60.8   32.5 (Tatar 4.9)
Adygea...................................        450        68.0   22.1
Buriatia.................................      1,050        69.9   24.0
Karelia..................................        780        73.6   10.1 (Belorussian 7.0)
Khakassia................................        584        79.5   11.1

----------------------------------------------------------------------------------------------------------------
\1\ Data from ``Political Almanac of Russia'' (Moscow Carnegie Center 1997). The table does not include the 10
  autonomous okrugs. Most of these territories, while vast, are sparsely populated (150 thousand or fewer
  residents). Two exceptions are the Khanti-Mansi AOk, with its vast oil reserves, and the Yamalo-Nenets AOk
  with its natural gas fields. Both are subordinated administratively to Tyumen oblast. Khanti-Mansi has a
  population of 1.3 million, of which fewer than 2% are Khanti or Mansi. Yamalo-Nenets has a population of
  480,000, of which just 5% are of the Nentsi people (the vast majority of the population in both okrugs is
  Russian).


    Since the late Gorbachev era, relations between Yeltsin's 
administration and Russia's 89 regional administrations have been 
characterized by extensive and protracted negotiation. Central and 
provincial leaders have bargained over division of budgetary funds, 
natural resources, policy jurisdictions, personnel appointments, and 
other questions of fiscal and policy competence. This period can be 
divided into two distinct phases, marked by different strategies 
pursued by federal leaders. While non-Russian regions received certain 
privileges as a group in the first phase, by the end of Yeltsin's first 
presidential term the dominant cleavages in the Federation were between 
rich and poor regions rather than between Russian and non-Russian 
regions.

1990-1994: Collective Bargaining
    Beginning with the declarations of sovereignty of the Russia's 
ethnic republics in 1990, the federal government in Moscow pursued a 
strategy of bargaining collectively with groups of regions. In 1992, it 
signed three ``Federation Treaties'' to serve as the basis for a new 
Russian constitution. Similar but distinct documents were signed with 
Russia's ethnic republics, predominantly Russian oblast/krais, and 
sparsely populated autonomous okrugs. In doing this, federal 
authorities effectively defmed three major groupings of regions which 
it would recognize in subsequent collective bargaining.
    During 1992 and 1993, the heads of Russia's ethnic republics met 
regularly and defined a coherent bargaining bloc in their relations 
with the federal center. Oblasts and krais were unable to match their 
coherence, despite abortive efforts to define analogous oblast-centered 
``republics'' (like the Urals Republic led by Sverdlovsk oblast or the 
Far Eastern Republic led by Primorskii krai). Unlike these ad hoc 
collaborations based on geographic proximity, the collective bloc 
formed by the ethnic republics had readily-identifiable markers of 
membership: regions defined constitutionally as ``republics'' could 
easily recognize their stake in the success of the bargaining unit. 
When Moscow granted a concession to one ``republic,'' all other 
republics could and did claim it as their constitutional entitlement as 
well. As a consequence, ethnic republics retained a disproportionate 
share of both fiscal subsidies and policy autonomy through 1993.

1994-1998: Bilateralism
    After the ethnic republics failed to collectively support Yeltsin 
in his showdown with the Russian parliament in 1993, the center moved 
to dismantle the structural advantages enjoyed by ethnic republics. It 
did so by attacking the unifying principle of their bargaining unit--
their common stake in securing collective privileges.
    Beginning with the 1994 Bilateral Treaty with Tatarstan, the 
Kremlin began distributing resources and autonomy to regions based on 
individual rather than collective deals. Beginning first with selected 
republics, and then extending the practice in 1996 to selected oblasts 
and krais, the federal government began defining its relations with 
specific regions through direct bilateral negotiations. As a 
consequence, it was able to restrict the privileges enjoyed by some 
republics without incurring the ire of other republics fearing their 
privileges were also at stake.
    Thus, in 1997, the Kremlin was able to restructure Sakha's highly 
lucrative diamond marketing concession without encountering any 
protests of solidarity from other resource-rich regions. Perhaps most 
strikingly, the Kremlin was able to prosecute its brutal war against 
Chechnya (with whom treaty negotiations broke down) without encountenng 
united protests from other Islamic republics. In instances like these, 
it was clear than regions were conceiving and structuring their 
relations with federal officials bilaterally rather than collectively. 
By June 1998, more than half of the 89 subjects of the Russian 
Federations had signed bilateral ``treaties'' with the federal 
government.

1998 and the Limits of Bilateralism
    Beginning in 1998, the Kremlin's reliance on bilateral bargaining 
with the regions became increasingly costly. By the spring of 1998, the 
central government was already losing access to the policy levers it 
needed to maintain a strategy of bilateral bargaining with regions. The 
fiscal collapse of August 1998 thus created a political as well as 
economic crisis by depriving the federal center of the few resources it 
could dole out to keep regional leaders in line.
    Especially troubling to the Kremlin was the emergence of 
``governors' blocs'' as players in the 1999 parliamentary election. 
While these were essentially loose alliances with overlapping 
memberships, parties like ``Gobs Rossiia'' and ``Vsia Rossiia'' amount 
to regional blocs defined not by inherited constitutional status (like 
the heads of republics) or accidents of contiguity (like Urals or Far 
Eastern associations). Instead, these new unions of governors represent 
political alliances specifically aimed at influencing the post-Yeltsin 
succession. The most successful of them was the OVR bloc--Otechesvlo-
Vsia Rossiia--led by Moscow mayor Yuri Luzhkov and former Prime 
Minister Yevgenii Pnmakov. Several non-Russian republican 
``presidents'' including Shaimiev of Tatarstan, Rakhimov of 
Bashkortostan, and Aushev of Jngushetiia--were prominent in the 
formation of this bloc, along with leaders of such rich regions as 
Moscow, St. Petersburg, and Nizhnii Novgorod. Their cooperation 
underlined the degree to which Russian/non-Russian cleavages no longer 
defined the federal landscape in Russia.
    A bloc of regional leaders, united across geographic areas and 
ethnic differences, represented the Kremlin's worst nightmare as the 
2000 presidential elections approached. With few carrots to offer those 
regional elites who remained loyal, the federal center instead used 
sticks to disrupt the emerging solidarity of the periphery.
The Center's Response: A Bloc of its Own
    Yeltsin's response to the new regional threat was swift and 
dramatic, and it led directly to the emergence of Vladimir Putin as a 
national politician. It came in two phases, as two challengers ``from 
then regions'' commanded the attention of the Kremlin.
    Lebed: In early 1998, the election of Alexander Lebed as governor 
of Krasnoyarsk krai raised the first real specter of a credible 
presidential challenge mounted by a ``regional leader.'' Lebed's 
election led swiftly to the dismissal of Victoria Mitina, Yeltsin's 
deputy chief of staff for regional policy.
    In Mitina's place, Yeltsin elevated Vladimir Putin from his post as 
head of the fiscal oversight Control Commission of the presidential 
administration. Putin's previous responsibilities had included the 
investigation of misuse of budget funds by regional leaders, and his 
appointment raised fears of an imminent vendetta against regional 
opponents of Yeltsin. So palpable was this fear that Putin's first act 
in his new job was to hold a press conference to avow that he 
considered no governor to be ``enemies'' of the administration, 
regardless of their views.
    Putin's next major initiative, however, signaled a new strategy by 
Yeltsin's team. Yeltsin presided over a meeting of the heads of the 
non-Russian republics, the same body coopted by Yeltsin during the 
early days of his presidency. According to published reports, Yeltsin 
made a ``separate deal'' with the republic heads, promising additional 
transfers of federal property and a renewed dedication to protecting 
privileges granted in earlier negotiations. The meeting foreshadowed a 
return to the co-optation model of the 1990-94.
    Luzhkov: By early 1999, the chief presidential challenger ``from 
the regions'' was no longer Lebed but Yurii Luzhkov, the mayor of 
Moscow. Luzhkov's bid was more threatening to the Kremlin, since it 
linked a charismatic politician to a bloc of governors--Vsia Rossiia--
formed to contest the 1999 parliamentary elections. His failure to 
derail the Luzhkov-Vsia Rossiia alliance in August 1999 cost Sergei 
Stepashin his job as Prime Minister.
    Stepashin's replacement--Putin--wasted little time in defusing the 
momentum generated by the Luzhkov-Primakov OVR bloc. Shortly after 
replacing Stepashin, Vladimir Putin attended a meeting of the 
``Siberian Accord,'' an inter-regional association in which Lebed has 
played a prominent role. Putin assured the Siberian leaders that the 
federal government would give priority to Siberian development. More 
significantly, he signaled that regional policy was and would remain 
near the top of his agenda.
    By the end of September, Putin's supporters had launched a new 
governors' bloc, labeled Yedinstvo, or Unity, to provide what he termed 
``an alternative'' to OVR. More significantly, by the end of September 
the Russian army was once again on the move in Chechnya, no longer on a 
mission to preserve the Federation but rather to combat domestic 
terrorism. As Yeltsin's poll numbers began to climb, driven by the 
Chechen war, the invincibility of the OVR alliance looked less and less 
certain. Throughout the fall, regional leaders quietly withdrew their 
support from OVR and began to climb aboard the Unity bandwagon, 
reluctant to be buried under what increasingly looked like a Putin 
landslide. After the December 1999 Duma elections, Luzhkov retreated 
from the national political scene, eager to reach some modus vivendi 
with Putin that would allow him to protect his economic and political 
power base in Moscow. After Yeltsin's surprise resignation at the end 
of 1999, OVR failed to offer its own candidate for the presidency, and 
the regional alliance that looked so threatening to Yeltsin six month 
earlier faded into the background of the Duma.

                 CENTER-REGIONAL RELATIONS UNDER PUTIN

    As one of his first acts as president, Putin moved to restructure 
the institutions that regulate center-periphery relations in the 
Russian Federation. In part, Putin has expressed a straightforward 
concern that the ``vertical'' dimension of power must be strengthened 
if federal laws are to be implemented. More subtly, however, he has 
also warned of the dangers of a fragmented legal or economic space in 
Russia. Putin has forcefully argued that foreign investors will 
continue to shun Russia unless it presents itself as a unified market 
and an arena in which property rights are equally respected in all 
regions.
    To these ends, Putin has begun dismantling the patchwork of 
bilateral agreements and treaties concluded by Yeltsin with many of 
Russia's regions. One of Putin's first acts as President was to 
pressure Bashkortostan's president Rakhimov to relinquish that 
republic's special tax status and to reintegrate itself into unified 
national fiscal system. According to Putin, president Shaimiev of 
Tatarstan similarly agreed to forego some of the benefits granted to 
the republic in its landmark 1994 treaty, though negotiations between 
Tatar and federal officials have been contentious over the past year.
    More formally, Putin has introduced a series of laws and decrees 
that alter the essential relationship between regional governors and 
the federal government. Laws on the Federation Council and on removing 
elected governors from office encountered some resistance from the 
Federation Council (the upper house of the legislature, composed ex 
officio of the governors and regional assembly speakers of each of 
Russia's 89 regions) but were finally passed at the end of July 2000. A 
May 2000 decree reorganizing the structure of the federal bureaucracy 
in the regions went into effect immediately, but the new structures it 
created are still taking shape.
    Many Russian and Western analysts view these reforms as heralding a 
recentralization of power at the expense of regional leaders--Russian 
and non-Russian alike--but this interpretation of the reforms is not 
consistent with the details of the new structures.

Restructuring the Federation Council
    Under the law finally signed by Putin on 5 August, the new 
Federation Council (FC) will have two representatives from each region, 
one from the executive side and one from the legislative side (as 
stipulated by the Russian constitution). Current FC deputies are to 
serve out their terms, or yield their seats by 1 January 2002.
    The FC delegate from the legislative side is to be nominated by the 
Speaker of the regional assembly. The FC delegate from the executive 
side is appointed by the governor directly, by decree. That appointment 
is subject to a potential veto by a vote of two-thirds of the regional 
assembly. The new FC delegates will serve terms that run concurrently 
with the terms of their respective appointers: the executive delegate 
serves as long as the governor/president of the region; the legislative 
delegate serves as long as the regional legislative session.
    Crucially, delegates are subject to recall by the same organs that 
appointed them. This provision casts doubt on the conventional wisdom 
that the Federation Council reform will diminish the power of the 
regional leaders. On the contrary, the FC delegates who replace the 
current governors will serve only as long as they retain the support of 
the governors. In addition, the new FC delegates will not concurrently 
hold responsible positions in their home territories, and will 
therefore be able to remain in Moscow--and in session--far longer than 
the previous FC norm of one or two days per month. As a consequence, 
the new Federation Council may prove to be a more significant 
legislative institution than its predecessor.
    Removing regional leaders from their automatic seats in the 
Federation Council will deprive them of a regular opportunity to meet 
and find common ground in their dealings with the center, however. Many 
of the regional alliances formed for the 1999 Duma elections were 
hatched in the corridors of the Federation Council. Some Russian 
observers have also complained that many of the new delegates to the FC 
are Muscovites rather than individuals living in the regions they 
represent. This may have the consequence of diminishing the 
representation of non-Russian interests in the parliamentary process.

Removing Governors and Regional Legislatures
    Another common misconception is that Putin has won the right to 
``fire'' regional governors and disband regional legislatures. This is 
a drastic overstatement. According to the new law on the structure of 
regional authorities, signed 29 July, Putin can essentially impeach 
regional authorities found to be acting in violation of the 
constitution. But the new law makes extensive provisions for federal 
courts and the Duma to play a role in regulating the process.
    Putin's objective in this reform is to create a mechanism to force 
regional authorities to comply with federal law. Under some estimates 
by the Russian Ministry of Justice, as many as half of all laws and 
decrees passed at the regional level prior to 2000 were in violation of 
the federal constitution or other federal laws. Since regional 
executives and legislatures became elected starting in 1995, there has 
been no clear mechanism for removing authorities who openly refuse to 
comply with federal law. On several occasions--most notably Moscow 
mayor Luzhkov's refusal to enforce court orders to scrap the capital's 
residence-permit system--regional authorities have remained in 
violation of federal court orders for years.
    Under the new law, if a court finds a regional law (or set of laws) 
to be in violation of the federal constitution, the regional assembly 
that passed it has three months to fix or annul the law (unless the 
court provides a different deadline). If it fails to change the law, 
the President issues a decree putting the regional assembly on 
``warning.'' If the regional assembly ignores the ``warning'' for a 
further three months, the President can introduce a law into the Duma 
to dismiss the regional assembly. If it passes and is signed by the 
president, the regional assembly is stripped of its powers on the day 
the law goes into effect. When an assembly is disbanded, new elections 
are scheduled.
    For governors (or republic presidents, as the law makes no clear 
distinction for republics), the President exercises more discretionary 
authority. If a governor issues decrees in violation of the federal 
constitutions there are two alternative responses by the center. First, 
a court can fmd the act unconstitutional, and the governor then has two 
months to annul it or face a Presidential decree putting him/her on 
``warning.'' Alternatively, if the executive act is annulled by an act 
of the Russian president rather than a court, the governor has two 
months to comply with the presidential order or appeal to a court, or 
else face a ``warning.'' If the warning has no effect after a month, 
the President can remove the governor (or republic president) from 
office. The decree removing the governor has a ten-day waiting period 
before taking effect, and during that time the governor can appeal to 
the Russian Supreme Court, which must act within 10 days.
    On the recommendation of the General Procurator, however, the 
President can also temporarily remove a governor (or republic 
president) if there is evidence s/he has committed serious crimes and 
the procuracy attests that an indictment is planned. In the event the 
chief executive is dismissed by the president, s/he is replaced 
according to the procedures specified in the regional constitution/
charter. If the charter/constitution makes no provision for an acting 
chief executive, the President appoints one to serve until new 
elections are held.
    It is important to note, however, that in the most prominent case 
to date of a regional leader forced out of office by Putin--that of 
Primorskii Krai's Yevgemi Nazdratenko--Putin did not make use of his 
new powers to oust Nazdratenko. Instead, after ratcheting up the 
pressure on the governor though a serious of auditors and emissaries 
dispatched to respond to the region's heating crisis, Putin won the 
governor's agreement to resign. Shortly thereafter, Putin appointed him 
to chair the federal fisheries committee. Just as Yeltsin had done for 
years, Putin relied at the crucial moment on the carrot rather than the 
stick.

                  REDISTRICTING FEDERAL ADMINISTRATION

    A final reform, this one accomplished by federal decree on 13 May 
2000, reorganizes the federal bureaucracy into seven ``federal 
districts'' each headed by a Presidential representative. Some 
observers in Russia and the West have called this reorganization the 
beginning of a radical redrawing of Russia's federal map. As with the 
laws discussed above, however, this evaluation is also unsupported by 
the limited facts currently available.
    Proposals to reorganize the federal bureaucracy in Russia along 
regional lines have been in circulation since the 1920s, and a plan at 
``regionalization'' of the economic planning system contributed to 
Khrushchev's ouster in 1964. More recently, however, two arguments for 
redistricting have become confused in Russia. On the one hand, some 
advisors and politicians have called for a replacement of the current 
map of 89 federal subunits of varying status (oblast, krai, okrug and 
republic) with a simpler system of 10-20 ``gubemiyas'' of comparable 
size and equal status. This plan would directly threaten the power 
bases of virtually all regional politicians in Russia and would 
eliminate the distinction between Russian oblasts and non-Russian 
``republics.'' On the other hand, as early as 1997, Yeltsin considered 
reforming the moribund system of ``presidential representatives'' which 
placed a presidential appointee in each region as to serve as the 
center's ``eyes and ears.'' The presidential representatives in place 
since 1990 had played almost no role in regional politics and had 
generally been ``captured'' by local governors upon whom they depended 
for support. Under the reforms first considered in 1997, Yeltsin would 
designate one representative to oversee a group of regions rather an 
individual region, diminishing the likelihood of their capture by an 
individual governor.
    Putin's reorganization represents a revival of the original Yeltsin 
plan of 1997-not the more radical ``guberniya'' plans occasionally 
discussed. Putin himself has disavowed any intent to change the federal 
map of Russia or abolish the current territorial divisions into 
oblasts, krais and republics. Instead, far more modestly, Putin intends 
for the newly appointed presidential representatives--or ``governors-
general''--in the seven new federal districts to have complete 
oversight authority to supervise the functioning of regional branches 
of federal institutions. To ensure that these new overseers are loyal 
to him, Putin has relied heavily of appointees with a military or 
security background: five of the seven new governors general come from 
the armed forces or KGB.
    The exact role the new governors-general will play remains highly 
uncertain, even a year after the system went into effect. Certain 
prominent law-and-order ministries--notably Interior and Justice--are 
explicitly reorganizing their field operations along federal district 
lines. While the governors-general may have different powers in 
different districts, Putin's intent seems to be to interpose the 
governors-general between regional governors and the Moscow officials. 
Rather than lobbying federal officials in Moscow for subsidies or tax 
breaks, governors are already finding their calls redirected to the 
governors-general. Laws and regulations in need of regional input are 
now sent to governors-general for comment, rather than to regional 
governors directly. Nominations for appointments to vacancies in the 
regional branches of federal ministries now go to the governors-general 
rather than the Presidential administration.
    Not all federal ministries are embracing the district 
reorganization. The federal treasury system, which has opened branch 
offices in each of Russia's 89 regions, has not reorganized along the 
seven-district model. This means that while governors-general will have 
oversight power in the area of law-making and personnel appointments, 
they will not have institutional mechanisms to interrupt or rechannel 
the flow of federal expenditures to the regions. Under the new Tax 
Code, however, the flow of tax revenues will be significantly more 
centralized. Governors-general have also been reviving the Soviet-era 
(and tsarist) position of ``inspectors'' who will have the power to 
conduct audits of regional administrations within the federal 
districts.
    One symbolic element of the reorganization was widely noted by 
Russian observers: none of the seven district ``capitals'' are in non-
Russian republics. Instead, by basing the federal redistricting on the 
existing model of militaiy districts rather than economic associations, 
Putin has signaled that these are to be institutions of control rather 
than mechanisms of representation or self-govermnent.
    Two of the seven appointees to the posts of governor-general played 
significant roles in the Chechen war. The Southern District, 
encompassing Chechnya and the rest of the North Caucasus, is the most 
volatile of the seven. The federal envoy there is Viktor Kazantsev, a 
general in the Russian Army who was commander of Russian troops in 
Chechnya until April 2000. Muslim and other non-Russian minorities in 
the region expressed concern that the district capital was located in 
Rostov, a Russian oblast capital, rather than in an ethnic republic. 
The choice of Kazantsev, whose role in the Chechen campaigns was 
prominent, only served to inflame tensions. In addition, Konstantin 
Pulikovsky, the federal envoy to the Far Eastern district, is a retired 
Lieutenant General in the Army. Pulikovskii directed Russian troops 
assulting Grozny in the summer of 1996. In addition to Primorskii Krai, 
Pulikovskii's district includes the vast republic of Sakha.

Regional Political Machines
    Many governors and republic presidents who secured re-election to 
office in 1996-97 have been coming to the end of their second terms in 
2000-2001. Federal law imposes a two-term limit on regional leaders, 
but manipulations of the election law have already been commonplace. In 
Tatarstan, President Shaimiev seems intent on pushing the envelope of 
electoral law manipulation. In February 1996, Shaimiev defied federal 
election requirements that no candidate run unopposed and won 97 
percent of the vote as the only name on the ballot. In 2000, he began 
to fight against a two-term limit on regional leadership that was due 
to take effect in 2001. Shaimiev at first framed the issue as a test 
case in the primacy of republican over federal law, since republican 
election legislation contains no limit on the number of terms served. 
Ultimately, Putin supported a change in federal law that would have 
removed the bar to Shaimiev's reelection--and open the door to dozens 
of other regional leaders to seek third or even fourth terms. Once 
again, Putin opted for a concession that he could use to neutralize 
regional opposition, in this case from a leader on the non-Russian 
republics.
    Even in regions where the Kremlin manages to intervene 
successfully, its control over events is limited. While Konstantin 
Pulikovskii, the governor-general in the Far East, was able to 
orchestrate the ouster of Primorskii governor Nazdratenko, he failed 
miserably in his bid to have his deputy elected as Nazdratenko's 
replacement. In other regions over the last year, the backing of Putin 
and the Kremlin has been insufficient to guarantee the election of 
gubernatorial candidates favored by the center.
    Beyond their ability to manipulate electoral laws, incumbent 
regional leaders have secured their hold on regional power by 
consolidating economic and political mechanisms of control. In many 
administrations, especially in the non-Russian republics, large 
enterprises are now partly owned by regional administrations, which 
secured stakes in payment for tax debts. This gives regional leaders 
control over significant cash flows and leverage over large labor 
forces who are also voters. In addition, in many regions, local media 
are heavily dependent on financing by regional administrations. Local 
media independence has been waning across Russia for the last five 
years. Taken together, these factors have resulted in a much higher 
reelection rate for incumbent governors in the 1997-2000 elections than 
during the initial 1995-97 election season. In 1999, for instance, 9 of 
13 incumbent governors who stood for reelection won.

Implications
    The reforms of center-regional relations have diminished the 
governors' presence in Moscow, but have yet to decisively limit their 
grip on power at home. Since they will still exert significant control 
over federal legislation through the new Federation Council, and as the 
functions and staffing of the new governors-general offices are still 
being worked out, regional leaders--Russian and non-Russian--seem 
poised to continue their dominance of political life within their 
regions, even if their ability to influence federal policy may diminish 
under Putin.

                              CONCLUSIONS

    This review of Russian regional policy over the last ten years 
highlights two important trends. First, with the exception of Chechnya, 
non-Russian republics within the Russian Federation have retained their 
peculiar constitutional status but increasingly are treated on an equal 
footing with other components of the Russian Federation. The ``ethnic 
factor'' in federal politics is not entirely gone, but it is certainly 
less prominent at the federal level than it was even five years ago. 
(It remains a factor at the local level, especially in ``republics'' 
where Russians are in the majority.)
    Second, despite his campaign of strengthening vertical 
accountability, Putin has continued Yeltsin's strategy of co-opling 
regional leaders--Russian and non-Russian--wherever and whenever 
possible. By allowing non-Russian elites in the ethnic republics to 
preserve their political and economic power bases in the regions, he 
has reduced the level of center-regional conflict significantly and 
assembled a regional consensus behind his drive to consolidate power at 
the center. This should not be confused with democracy or federalism as 
we know it: the emerging political structure preserves the power of 
elites in large party by disenfranchising large segments of society, 
undermining civil rights, and curtailing media freedoms. What I have 
tried to suggest here is that this project has lately become a 
cooperative effort by federal and regional elites--Russian and non-
Russian--rather than a project directed by the federal leadership 
against regional leaders.
    Finally, the emerging consensus between federal and regional elites 
over the nature of the Russian state only deepens the tragedy of 
Chechnya. There can be, and should be, no illusion that the Russian 
government's actions in Chechnya are necessary or even useful for 
preserving the territorial integrity of Russia. The Russian army is not 
``making an example'' of Chechnya for the benefit of other non-Russian 
regional leaders--those leaders have long since made their peace with 
the Kremlin. As an anti-terrorism campaign, the second Chechen war has 
been counterproductive, but even worse, as a political statement it has 
been pointless. As it has been for over a century, Chechnya remains a 
special case in Russia. It merits a special solution to end its agony.

    The Chairman. Thank you very much, doctor. Dr. Dunlop.

  STATEMENT OF DR. JOHN B. DUNLOP, SENIOR FELLOW, THE HOOVER 
INSTITUTION ON WAR, REVOLUTION, AND PEACE, STANFORD UNIVERSITY, 
                          STANFORD, CA

    Dr. Dunlop. Thank you, Senator Biden, Senator Helms, 
Senator Lugar.
    The current war in Chechnya has lasted 2 months longer than 
did the previous 1994-1996 conflict, and there appears to be 
little chance of a negotiated settlement occurring in the 
foreseeable future. The term ``Khasavyurt Accords,'' signifying 
the August 1996 peace settlement which put an end to the 
fighting, has now become a term of abuse, both for the Putin 
leadership and the Russian military and police. ``No more 
Khasavyurts!'' is a rallying cry frequently heard in statements 
by regime representatives and by their supporters. Russian 
opinion polls show that the public has, by now, grown weary of 
this stalled and costly military campaign.
    President Putin, however, has made it clear that he intends 
to carry on with the war for as long as it takes to achieve an 
unconditional victory. In mid-March of this year, he indicated 
that Stalin's postwar campaign against anti-Soviet partisans in 
western Ukraine and the Baltic could serve as a relevant 
precedent, suggesting that he, like Stalin, is prepared, if 
necessary, to continue this war for 10 years or longer, for as 
long as it takes.
    It should be underscored that the economic costs of this 
war have been and remain very high. In April of this year, 
economic specialist Boris Vishnevsky calculated that in 1999 
and the year 2000, the Russian Government had spent 
approximately $8.8 billion on military activities in Chechnya, 
thereby exceeding the annual budgets of the capital cities of 
Moscow and Petersburg.
    In light of the Putin regime's apparent commitment to 
soldier on with the war, despite these appalling human and 
economic costs, what should the representatives of the G-7 
countries be saying to Mr. Putin at the upcoming Genoa summit? 
In my opinion, they should, inter alia, talk to him about war 
crimes and about the apparent impunity of the Russian forces 
stationed in Chechnya.
    Recently, a number of high-ranking pro-Moscow Chechen 
officials have begun to complain vigorously about lawlessness 
and marauding on the part of the Russian forces based in 
Chechnya. On 9th of July, for example, the pro-Moscow head of 
administration for the republic, Mufti Akhmad Kadyrov, 
maintained that ``large-scale crimes against civilians'' had 
been committed, while ``not a single bandit was arrested, not a 
single rifle was confiscated, and no explosive substances were 
found.'' In similar fashion, Shamil Beno, until recently 
Kadyrov's official representative in Moscow, confided: 
``Chechen civilians are being killed on a daily basis. Our 
estimates show that an average of from 15 to 20 civilians are 
being killed every day, and these are the cases that become 
known.'' Statements such as these from well-informed pro-Moscow 
administrators, are important. If even such officials claim 
that war crimes are taking place in Chechnya, then one can be 
quite sure that they are.
    From such accounts, which could easily be multiplied many 
times over, it seems obvious that a breakdown of discipline and 
of elementary order has taken place among the Russian forces 
based in Chechnya. Sent into the republic to combat bandits, 
they have themselves become bandits who prey lawlessly on the 
civilian populous. To date, these marauders have been acting 
with virtual impunity.
    This question of the impunity of the Russian Federal forces 
based in Chechnya should be raised by the G-7 leaders when they 
meet with President Putin in Genoa at the end of this week. On 
the 12th of this month, Lord Russell-Johnston, president of the 
Parliamentary Assembly of the Council of Europe, or PACE, 
stated in Strasbourg: ``In recent weeks, there has been 
mounting evidence of a rapidly deteriorating human-rights 
situation in Chechnya. There is little doubt that the conduct 
of the Russian forces is largely to blame for this. I expect 
all human rights violations to be condemned at the highest 
levels by the Russian authorities.'' And Russell-Johnston 
continued: ``The reports of human-rights abuses come against 
the background of the Russian authorities' deplorable lack of 
willingness to properly investigate allegations of past abuse. 
The failure to bring to justice those responsible for crimes 
constitutes a blatant violation of Russia's obligations as a 
member of the Council of Europe and as a party to its most 
important conventions.''
    Noting that a PACE delegation would be visiting Chechnya in 
mid-September and that the dreadful situation in the republic 
would be discussed in detail at an assembly session that month, 
Russell-Johnston added: ``By September, we expect to receive 
evidence of concrete and substantial progress with regard to 
both the present conduct of Russian security forces and the 
investigations of past abuses.'' This message, one would think, 
is one that should also be delivered to the Russian President 
by G-7 representatives at the upcoming Genoa summit.
    The recent transfer of former Yugoslav President Slobodan 
Milosevic to the International Criminal Tribunal in The Hague, 
an action sharply criticized by President Putin, has prompted 
several leading Russian democrats to envisage a similar fate 
awaiting those responsible for committing war crimes in 
Chechnya. ``I affirm, and I am prepared to prove,'' Duma deputy 
and former Russian Human Rights Commissioner Sergei Kovalev 
observed recently, ``that the losses taking place among the 
civilian population of Chechnya are not simply the result of 
clumsiness or imprecision by the Federal command. I affirm, 
rather, this a conscious and purposeful policy.''
    The issue of Chechen refugees represents one facet of the 
present conflict which deserves to be highlighted. Currently, 
there are at least 150,000 to 160,000 Chechen refugees seeking 
shelter in the autonomous Republic of Ingushetia. The Putin 
leadership has made it clear that it wants this entire populace 
relocated to Chechnya, even though it cannot conceivably 
guarantee their physical safety. The Chechen refugees do not 
want to be sent back into a war zone, an action which would 
furthermore constitute a violation of the Geneva Conventions. 
As one refugee woman put it, ``I have three children. Do you 
think that we are being kept here in Ingushetia against our 
will or that we are living here for humanitarian aid, for moldy 
macaroni? I would be glad to live in my own home in Chechnya, 
but I am responsible for my children and I cannot subject them 
to danger. If the war ends, then we will immediately go home.'' 
This sentiment appears to be that of a weighty majority of the 
refugees.
    I was asked to add a few comments concerning the position 
of other minority peoples living in Russia, but, due to lack of 
time, let me only say that, in my opinion, we do appear to be 
seeing a retreat from federalism in Russia today and a desire 
to recreate a unitary state such as existed under the 
Communists, though this process is ongoing and far from 
complete.
    I conclude my paper with two policy recommendations. First, 
the U.S. Congress should require an annual report from the 
State Department detailing the status of human rights and the 
violations of international law in Chechnya. And, second, the 
State Department should be asked to appoint a special 
coordinator for Chechnya who would coordinate the logistical 
work among different bureaus and areas: human rights, refugees, 
Russia, North Caucasus, Azerbaijan, and Georgia. A key focus 
for this coordinator would be the Chechen refugee tragedy. And, 
finally, let me offer support for the concurrent resolution 
which will be shortly introduced by Senator Helms concerning 
the tragedy in Chechnya and other recent Russian political 
developments on the occasion of the upcoming G-7 meeting. Thank 
you.
    [The prepared statement of Dr. Dunlop follows:]

                Prepared Statement of Dr. John B. Dunlop

           RUSSIA'S UNDECLARED WAR AGAINST CHECHEN CIVILIANS

    The current war in Chechnya has lasted two months longer than did 
the previous 1994-1996 conflict, and there appears to be little chance 
of a negotiated settlement occurring in the foreseeable future. The 
term ``Khasavyurt Accords,'' signifying the August 1996 peace 
settlement which put an end to the fighting, has now become a term of 
abuse both for the Putin leadership and for the Russian military and 
police. ``No more Khasavyurts!'' is a rallying cry frequently heard in 
statements by regime representatives and by their supporters.
    Russian opinion polls show that the public--which, at the beginning 
of the conflict in 1999, enthusiastically embraced the war effort, thus 
propelling Vladimir Putin into the Russian presidency at the time of 
the March 2000 elections--has by now grown weary of the stalled and 
costly military campaign. A Russia-wide survey conducted last month by 
the independent research center ROMIR found only 33.7% of Russian 
citizens to one extent or another supporting the actions of the federal 
forces in Chechnya, while 53.5% opposed those actions. The poll also 
found that 20.2% of respondents wanted a full withdrawal of Russian 
forces from Chechnya and a recognition of the independence of that 
republic.
    ``A tectonic shift,'' the well-known sociologist Boris Kagarlitsky 
commented earlier this month, ``is occurring in [Russian] society now, 
as an anti-military mood is not only becoming widespread, but actually 
predominant. This mood is already, in my estimation, stronger than it 
was at the end of the first Chechen war.'' Kagarlitsky went on to note 
that, ``The recent state attacks on the [Russiani press have been 
largely motivated by its military failures. Not able to achieve results 
on the battlefield, the Kremlin can only double and redouble its 
propaganda effort. . . . This means opening a second front--at home, 
against journalists.'' (Moscow Times, July 9)
    Despite the ``tectonic shift'' in public opinion to which 
Kagarlitsky refers, few in Russia expect President Putin or his team to 
be seriously concerned over this decline in public support for the 
conflict. Russia now possesses what has been described as an ``elective 
monarchy,'' and a Russian sitting president must briefly focus upon 
public moods only when an election draws near (the next presidential 
election, of course, is scheduled for March of 2004). The Russian 
public is aware of this situation. When, at the end of last month, Ekho 
Moskvy Radio asked its listeners if the war in Chechnya would end soon, 
90% of those who phoned in with a comment predicted that the conflict 
would not end soon; only 10% believed in an early end to the war.
    President Putin has made it clear that he is prepared to carry on 
with the war for as long as it takes to achieve an unconditional 
victory. In mid-March of this year, during a conversation with the 
editors of four leading Russian newspapers, Putin cited Stalin's 
postwar campaign against anti-Soviet partisans in western Ukraine and 
the Baltic as a relevant precedent, suggesting that he, like Stalin, is 
prepared, if necessary, to continue the war for ten years or longer--
for as long as it takes. (Izvestiya, March 22)
    It should be underscored that the economic costs of the war have 
been and remain very high. In April of this year, economics specialist 
Boris Vishnevsky calculated that, in 1999 and 2000, the Russian 
government spent approximately $8.8 billion on military activities in 
Chechnya, thereby exceeding the annual budgets of the capital cities of 
Moscow and St. Petersburg. (Novaya Gazeta, no. 29) The war has also 
been costly in terms of human life. On the sixth of this month, sources 
in the Russian Defense Ministry told Interfax that 3,433 servicemen had 
been killed to date in the conflict, and that 10,160 had been wounded. 
The Soldiers' Mothers' Committee of Russia believes that these figures 
are far too low and estimates that to date approximately 10,000 
soldiers have been killed and 12,000 wounded. (New York Times Magazine, 
8 July)
    In light of the Putin regime's apparent commitment to soldier on 
with the war despite these appalling human and economic costs, what 
should representatives of the G-7 countries say to Mr. Putin at the 
upcoming Genoa summit? In my opinion, they should talk to him about war 
crimes and about the apparent impunity of the Russian forces stationed 
there. Whether or not he is prepared to admit it, Putin faces a growing 
political and social crisis in the form of the massive loss of 
discipline by and the disintegration and criminalization of the Russian 
military and police forces based in Chechnya. In the 26 June issue of 
the Boston Globe, journalist David Filipov reported the widespread 
practice of Russian officers' selling the bodies of deceased Chechens 
to their relatives at an exorbitant price. One woman with whom Filipov 
spoke, the mother of five children, was offered the body of a nephew by 
a Russian officer for the sum of $1,000, plus a $200 gold necklace. 
Military and police shakedowns, Filipov notes, take place non-stop at 
the numerous checkpoints set up throughout the republic. ``Everyone in 
Chechnya,'' he writes, ``must pay bribes to pass military checkpoints, 
some of which have `cash register' signs pointing out where to pay. 
Nearly everyone has had property or valuables confiscated during 
document checks.''
    At the beginning of this month, as correspondent Patrick Tyler 
reported in the 11 July issue of the New York Times, hundreds of 
Russian Interior Ministry troops, backed by helicopter gun-ships, swept 
into two villages--Assinovskaya and Sernovodsk--lying close to 
Chechnya's border with the neighboring autonomous republic of 
Ingushetiya. They arrived in more than one hundred armored personnel 
carriers, whose identification numbers had been intentionally smudged 
over. All Chechen males between the ages of 15 and 55 were then 
forcibly taken away to filtration points. In the village of 
Assinovskaya. which Tyler personally visited, soldiers had kicked down 
the doors of a school, thrown grenades into empty classrooms, and blown 
open three safes, from which they had appropriated the equivalent of 
$2,000 in cash, funds earmarked for the payment of teachers' salaries.
    Recently a number of high-ranking pro-Moscow Chechen officials have 
begun to complain vigorously about such lawlessness and marauding on 
the part of the Russian forces based in Chechnya. On 9 July, for 
example, the pro-Moscow head of administration for the republic, Mufti 
Akhmad Kadyrov, maintained that ``large scale crimes against 
civilians'' had been committed, while ``not a single bandit was 
arrested, not a single rifle was confiscated, and no explosive 
substances were found.'' Kadyrov accused the Russian troops of robbing 
hospitals as well as the already-mentioned school in Assinovskya. 
(Gazeta.ru, 9 July)
    In similar fashion, Shamil Beno, until recently Kadyrov's official 
representative in Moscow, confided to Ekho Moskvy Radio on 9 July: 
``[Chechen] civilians are being killed on a daily basis. Our estimates 
show that an average from 15 to 20 civilians are killed every day. 
These are cases that become known.'' In the village of Novyi Sharoi, 
Beno went on to report, all males between the ages of 14 and 55 had 
been detained by Russian troops and subjected to electric shock torture 
while they were being interrogated. Chechen detainees, he said, were 
required to pay 500 rubles to keep their cars from being smashed and 
1,500 rubles to avoid being physically beaten.
    Lastly, Rudnik Dudaev (no relation to the late Chechen president), 
who is currently the secretary of the pro-Moscow security council of 
Chechnya, told Moscow News a week ago: ``They [Russian soldiers] move 
about in armored vehicles carrying black flags upon which a skull and 
crossbones have been emblazoned. Many of them also have a skull and 
crossbones on the [ski] masks they wear. . . . Almost all of the 
armored vehicles they drive have their numbers smeared over with dirt: 
in case of an incident, and such incidents occur often, the vehicle 
cannot be found.'' The Russian military and police, Dudaev went on to 
assert, are heavily involved in--indeed they effectively control--the 
vast illegal transport of Chechen oil out of the republic. (Moskovskie 
Novosti, no. 28)
    Statements such as these from well-informed pro-Moscow 
administrators are important. If even these officials claim that war 
crimes are taking place in Chechnya, then one can be quite sure that 
they are. Significantly, the commander of the Russian Combined Group of 
Forces in Chechnya, General Vladimir Moltenskoi, himself admitted a 
week ago: ``Those who conducted the searches [in Sernovodsk and 
Assinovskya] did so in a lawless fashion, committing numerous outrages, 
and then pretending that they knew nothing about them.'' (Quoted in the 
New York Times, 11 July) Later on the same day that he had made this 
admission, however, Moltenskoi began to backpedal and to qualify his 
remarks. (Washington Post, 12 July)
    The crimes committed by Russian forces in Chechnya have been 
confirmed and amplified by other sources of reliable information. Thus, 
the office of the leading human rights organization, Memorial, in 
Nazran, Ingushetiya reported that one man, Salambek Amagov, had died of 
liver failure after being harshly beaten by Russian soldiers in 
Sernovodsk. In that village, Memorial also reported, 700 people had 
been herded together: ``The rates were made clear: boys cost 200 
rubles, older people from 500 to 1,000 rubles depending on whether they 
had local registration.'' (Moscow Times, 9 July)
    From the above accounts--which could easily be multiplied many 
times over--it seems obvious that a complete breakdown of discipline 
and of elementary order has taken place among the Russian forces based 
in Chechnya. Sent into the republic to combat ``bandits,'' they have 
themselves become bandits who prey lawlessly on the civilian populace. 
To date, these marauders have been acting with virtual impunity. The 
national chair of the human rights organization Memorial, Oleg Orlov, 
recently pointed out that, in Chechnya, 212 criminal cases in which 
Russian soldiers were suspects had been quashed by the pro-Moscow 
Chechen procuracy, allegedly because that entity had been unable to 
determine which soldier had committed a specific crime. (Interfax, 10 
July)
    This question of the shocking impunity of the Russian federal 
forces based in Chechnya should be raised by the G-7 leaders when they 
meet with President Putin in Genoa at the end of this week. On the 
twelfth of this month, Lord Russell-Johnston, President of the 
Parliamentary Assembly of the Council of Europe (PACE), stated in 
Strasbourg: ``In recent weeks, there has been mounting evidence of a 
rapidly deteriorating human rights situation in Chechnya. There is 
little doubt that the conduct of the Russian forces--as manifested 
during the recent ``mop-up'' operations in Assinovskaya and 
Sernovodsk--is largely to blame for this. I expect all human rights 
violations to be condemned at the highest levels by the Russian 
authorities.'' And Russell-Johnston continued: ``The reports of human 
rights abuses come against the background of the Russian authorities' 
deplorable lack of willingness to properly investigate allegations of 
past abuse. The failure to bring to justice those responsible for 
crimes constitutes a blatant violation of Russia's obligations as a 
member of the Council of Europe and as a party to its most important 
conventions, notably the European Convention on Human Rights and the 
European Convention for the Prevention of Torture and Inhuman or 
Degrading Treatment or Punishment.''
    Noting that a PACE delegation would be visiting Chechnya in mid-
September and that the dreadful situation in the republic would be 
discussed in detail at an Assembly session to be held in late 
September, Russell-Johnston added: ``By that time [September], we 
expect to receive evidence of concrete and substantial progress with 
regard to both the present conduct of the Russian security forces and 
the investigations of past abuses.'' (Council of Europe Press Unit, 12 
July) Russell-Johnston concluded by inviting European and world leaders 
who have developed close and cordial relationships with President Putin 
to ``use their influence to bring to bear effective pressure on the 
Russian authorities to change their present unacceptable conduct.'' 
This message, one would think, is precisely one that should be 
delivered to the Russian president by G-7 representatives at the 
upcoming Genoa summit.
    The recent transfer of former Yugoslav President Slobodan Milosevic 
to the International Criminal Tribunal in the Hague--an action sharply 
criticized by President Putin--has prompted several leading Russian 
democrats to envisage a similar fate awaiting those responsible for 
committing war crimes in Chechnya. ``I affirm and am prepared to 
prove,'' Duma deputy and former Russian human rights commissioner 
Sergei Kovalev observed recently, ``that the losses taking place among 
the civilian population of Chechnya are not simply the result of 
clumsiness or imprecision by the federal command. I affirm, rather, 
that this is a conscious and purposeful policy.'' (Russkaya Mysl' 
[Paris], 28 June)
    In similar fashion, a leading Russian military journalist, Pavel 
Felgenhauer, recently wrote in a hard-hitting essay entitled ``An Echo 
of Groznyi in the Hague'': ``It has already been proven that, during 
the course of the present Chechen campaign, the Russian military have 
massively infringed international conventions which have been ratified 
by Russia and have been employing forbidden forms of weaponry.'' Citing 
a report by Colonel General Leonid Zolotov, commander of the 
prestigious Frunze Military Academy, Felgenhauer remarked that 
incendiary bombs and so-called vacuum bombs had been employed by the 
Russian air force on the city of Groznyi at a time when it contained 
``up to 100,000 peaceful inhabitants.'' In Groznyi and other Chechen 
cities, ``there were killed thousands of women, the elderly and 
children.'' Such actions manifestly violated the Geneva Conventions. 
Felgenhauer thus foresees a day when ``[military] staffs and ministers 
and many individuals'' in Russia will find themselves ``on an 
international wanted list.'' (Moskovskie Novosti, no. 27)
    The issue of Chechen refugees represents one facet of the present 
conflict which deserves to be highlighted. Currently there are at least 
150,000-160,000 Chechen refugees seeking shelter in the autonomous 
republic of Ingushetiya. Indeed the numbers of these refugees seem to 
have swollen as a result of recent marauding by the Russian military 
and police. The Putin leadership has made it crystal clear that it 
wants this entire populace relocated to Chechnya, even though it cannot 
conceivably guarantee their physical security.
    On 6 June, at a meeting held at the Andrei Sakharov Museum in 
Moscow, Ruslan Badalov of the Chechen Committee for National Salvation, 
presented a representative of the Organization for Security and 
Cooperation in Europe (OSCE) with an appeal which had been signed by 
10,000 Chechen refugees living in Ingushetiya. ``Today,'' Badalov said, 
``the Russian government has unveiled a new campaign, the goal of which 
is, at any cost, to return the refugees to Chechnya.'' This is being 
done, Badalov said, because ``Russia fears complicating its relations 
with the West and is therefore prepared to hide the human tragedies far 
away from everyone.'' (Kommersant, 7 June)
    The Chechen refugees, as was repeatedly stressed at this meeting, 
do not want to be forced back into a war zone, an action which would, 
furthermore, constitute a violation of the Geneva Conventions. As one 
Chechen refugee in Ingushetiya, Zareta Sembieva, put it to a Russian 
newspaperwoman: ``I have three children. Do you think that we are being 
kept here [in Ingushetiya] against our will? Or that we are living here 
for the humanitarian aid--for moldy macaroni? I would be glad to live 
in our own home [in Chechnya] . . . But I am responsible for my 
children and cannot subject them to danger. If the war ends, then we 
will immediately go home.'' (Novye Izvestiya, 25 May) Sembieva's 
sentiments appear to be those of a weighty majority of Chechen 
refugees.
    I have been asked to add a few brief comments concerning the 
position of other minority peoples living in Russia. Obviously the 
tragedy of the Chechens is unique, but other Russian minorities, too: 
are feeling the effects of the Putin regime's retreat from democracy 
and from its apparent desire to reconstruct a de facto unitary state. 
In Ingushetiya less than a week ago, President Ruslan Aushev felt 
required to publicly condemn the ``barbarism and vandalism'' of Russian 
troops stationed in his republic. The troops had shot up an ancient 
funeral vault, dating back at least to the sixteenth century, and had 
desecrated a twelfth century Christian church (``Khaba-Erdy'' church). 
An ancient tower had likewise been razed. Russian soldiers had been 
stunning fish by throwing hand grenades into the Asa and Aramkhi 
rivers; had been wantonly chopping down local forests; had fired with 
automatic weapons at and had killed livestock belonging to the local 
populace; and had set fire to hay gathered by local farmers. The Ingush 
populace were understandably said to be enraged at this wanton 
behavior. (Strana.ru and NTV.ru, 13 July)
    In its manifest retreat from federalism and in its clear-cut desire 
to recreate a unitary state such as existed under the communists, the 
Putin regime, backed up by a generally subservient judiciary, has been 
repudiating provisions contained in forty-two treaties signed by the 
Russian government during the Yeltsin period with autonomous republics 
and other subjects of the Russian Federation. The republics of 
Tatarstan, Bashkortostan, Sakha-Yakutiya, and Tyva were reported to be 
especially unhappy over these developments. In another recent change, 
the heads of republican ministries of internal affairs have been made 
directly subordinate to President Putin rather than to local regional 
heads. The movement back toward a Soviet-style unitary state continues.
    I conclude my paper with two policy recommendations:

          1. The U.S. Congress should require an annual report from the 
        State Department detailing the status of human rights and of 
        violations of international law in Chechnya.

          2. The State Department should be asked to appoint a special 
        coordinator for Chechnya who would coordinate the logistical 
        work among different bureaus and areas: Human Rights, Refugees, 
        Russia, North Caucasus, Azerbaijan and Georgia. A key focus for 
        this coordinator would be the Chechen refugee tragedy.

    The Chairman. Thank you very much. Dr. Balzer.

  STATEMENT OF DR. MARJORIE M. BALZER, RESEARCH PROFESSOR AND 
COORDINATOR OF SOCIAL, ETHNIC, AND REGIONAL ISSUES, CENTER FOR 
     EURASIAN, RUSSIAN, AND EAST EUROPEAN STUDIES (CERES), 
             GEORGETOWN UNIVERSITY, WASHINGTON, DC

    Dr. Balzer. Thank you. It is an honor to be here.
    I am a cultural anthropologist, and I spent 10 of the last 
12 summers in the Sakha Republic, but I will try to be broader 
than that for this talk and discuss federalism in Russia, or 
Rossiia, as people there often call it, implying the multi-
ethnic dimensions of the Federation. And the question is: From 
above, from below, or nowhere?
    As economic, political, and military crises inside the 
Federation of Rossiia worsen, debates intensify over whether 
central, Moscow, policies and practices aggravate the fissures 
of separatism and nationalism. To probe issues underlying this 
still-unfolding process, diverse ways that republic 
representatives have been responding to chaos and attempts to 
reassert central control should be explored. Through the study 
of the crisis-driven 1990's, enormously painful to victims of 
war and economic deprivation, we can learn much about the 
dynamics of polarization and the politics of social and 
national identity.
    The secession attempts of the Chechens from Russia have a 
long history aggravated by two 1990's brutalizing wars that 
have not subsided despite President Putin's protestations of 
peace at hand. While President Putin's handling of Chechnya is 
the opposite of a reasoned Federal strategy, other aspects of 
his policies do come closer to a negotiated federalism and also 
represent his attempts to become a populist President. Images 
of President Putin piloting a fighter plane in Chechnya 
contrast with his smiling participation at the annual Turkic 
Sabbantui summer festivals of Tatarstan and Bashkortostan where 
he went to court and cajole the Presidents of these republics 
in 2000 and 2001, respectively.
    These public displays were noticed by my friends in the 
Parliament of the Sakha Republic where surprised deputies, 
seeing President Putin in shirt sleeves and knowing his KGB 
background, proclaimed, ``He has gone to the people. He is 
appealing to the public.'' Like President Yeltsin, President 
Putin has been using a combination of carrots and sticks to 
attempt to manage the unwieldy Federation he inherited. But, to 
continue Steve Solnick's metaphor, unlike President Yeltsin, 
President Putin has shortened the carrots and strengthened the 
sticks. Leaders in the republics have been put on notice that 
all the carrots have sticks behind them.
    The main message of this testimony is that most of the 
republics inside of Russia are not secessionist and not likely 
to become dominoes in a potential aftermath of any successful 
Chechnya negotiated secession. However, the potential for 
radicalization and polarization does exist, depending on center 
policies and on center-republic dynamics.
    The region where radicalization is greatest is the North 
Caucasus, especially among the neighbors of Chechnya where the 
outpouring of Chechen refugees, as we just heard, including 
embittered, unemployed, and poorly educated youth, has become a 
serious destabilizing problem made worse by recent Russian 
military atrocities in villages near the unstable Chechen-
Ingushetia border.
    By way of introduction--I can skip some things because 
Steve has already explained--history matters. The ``matrushka-
doll'' Federation that President Putin inherited is multi-
leveled, complex, asymmetrical, and quite entrenched. My table 
1 \1\ gives you a line-up of all of these. The idea behind it 
is to show you the complexity that he inherited. Borders 
involving ethnic-based territories are nearly impossible to 
change without dangerously violating various ethnic groups' 
understandings of what constitutes their rightful homelands. 
The legacies of the Federation adapted from the Soviet Union 
mean that the geographic structure of the Russian Federal 
politics--and ``Federal,'' in this case, may be in quotes--is 
only poorly analogous to the multi-cultural United States, with 
possible exceptions of our Native American treaty-based 
reservations and Puerto Rico.
---------------------------------------------------------------------------
    \1\ The tables referred to by Dr. Balzer in her oral presentation 
can be found in her prepared statement on page 30.
---------------------------------------------------------------------------
    Demography also matters. Steve explained that only five 
republics have majorities inside their own republics of non-
Russians. In addition, one could put it this way, in most of 
the ethnic-based republics of Russia, the local ``titular'' 
ethnic group has a demographic plurality, but not a majority. 
These kinds of proportions are outlined in table 2. These are 
``swing-vote,'' as I call them, republics such as the Sakha 
Republic, Altai, Kalmykia, Marii-El, and Udmurtia, where 
referendums on central policies could matter and where 
electoral candidates backed by the Putin administration can be 
contested. These are areas where the zigzags of center-republic 
dynamics are especially sensitive and where ethnic relations 
are very important with tensions potentially magnified by 
policy mistakes or local inter-ethnic discrimination scandals.
    I also want to point out that names and cultural symbols 
matter. These are republics, in their 1990's incarnations, that 
have specific names for themselves, and there is a sensitivity 
over their new names. President Putin recently acknowledged 
name sensitivities by signing a decree endorsing Chuvashia as 
the Chavash Republic, for instance. But he has acknowledged 
such politically sensitive name changes unevenly and has not 
supported the rights of republic citizens to state their 
nationalities in their passports. A compromise was recently 
found for Tatarstan to have a separate page in the Tatar 
language in Tatarstan passports. Each of these republics has 
its own seals and flags, many generated through competitions 
among local artists. Most have local-language names for their 
newly constituted parliaments and new language programs to 
compensate for past unbalanced bilingualism that favored 
Russians.
    In my next section, I discuss managing federalism or, in 
some cases, mismanaging it, and I want to just outline, without 
going into details, the major points of contention, as I see 
it, between the republics and President Putin's administration. 
These include resource competition and the related demise of 
bilateral treaties, changes in republic constitutions, 
electoral politics at multiple levels, and administrative 
redistricting.
    Let me turn to the debates about administrative 
redistricting. As outlined in my chart, and by Steve, instead 
of appointing republic Presidents, which President Putin 
threatened to do, the 2000 redistricting created seven mega-
districts over-seeing the republics using larger regional 
military districts as the basis for their borders. Debates 
abound as to whether the mega-districts are working or 
represent a new layer of potential bureaucratic confusion, at 
best, and corruption, at worst. Republic authorities are 
nervous about their loss of direct lobbying access to the 
Kremlin and angry about which cities have been chosen as 
capitals of the districts. The only silver lining concerning 
these districts, given both blatant and latent opposition to 
them in the republics, is that they may satisfy President 
Putin's taste for redistricting from above.
    He has, in several speeches, suggested even more radical 
redistricting: that the asymmetrical federation would be better 
off as a more controllable, symmetrical country of 30 to 50 
regions. Such statements, the execution of which would involve 
extensive boundary changes, are deeply frightening to many non-
Russians living in their established ethnicity-based republics 
and smaller districts.
    In my conclusions, I want to point out that President Putin 
just recently addressed an assembly of the peoples of 
Bashkortostan, in June 2001, proclaiming proudly, ``Rossiia has 
an absolutely unique place on Earth with its enormous number of 
nations, nationalities, languages, and cultures. Its uniqueness 
consists in that, over the centuries, practically 1,000 years, 
this mixture of peoples and different ethnicities have lived 
harmoniously.'' He sounded like a Soviet official, propounding 
the friendship of the peoples. Indeed, interethnic harmony, 
including high rates of interethnic marriage, has been part of 
the history of the peoples of today's Russian Federation, but 
these romanticized friendships have been sorely tried by 
experimentation that began with Russian imperialism, continued 
with many of Stalin's nationality policies, and have been 
inflamed by the Chechnya war and its cover-up. As my colleague 
Paul Goble has said, ``The best antidote to chauvinist brands 
of nationalism is a well-managed federalism.''
    What can the United States do to encourage Rossiia to 
practice what President Putin preaches about mixtures of 
peoples living harmoniously? We can only influence on the 
margins, but we do have some leverage. While Russians are 
understandably averse to being lectured by Americans, we can 
encourage more civic and less nationalist chauvinist behavior 
on the part of central and regional authorities by investing 
directly in those regions and republics where relatively 
greater efforts are made at civil society.
    First, we can attempt to deal directly with regions and 
republics, sometimes bypassing Moscow entirely, although taking 
care that this not be perceived as a new round of espionage or 
secession-mongering. While some authorities on Russia's regions 
and republics, including some of President Putin's advisors in 
Moscow, tend to think of the republics as, in general, more 
corrupt ``ethnocracies'' than the Russian-led regions, 
corruption seems to be an equal-opportunity phenomenon. We can 
try to reward both Russian-led regions and ethnic-based 
republics for greater transparency in economic relations.
    Second, we can encourage our allies in Europe to reinforce 
calls for negotiation and to address major human-rights 
complaints. The recent call of the OSCE for negotiations to 
resume over Chechnya, including with the elected President, 
Aslan Maskhadov, is a step in the right direction. A political 
settlement is crucial, possibly including phased independence 
for Chechnya. At the same time, good-faith reconstruction 
efforts should be made in Chechnya to help bring refugees home 
and to start the painful process of educating a whole 
generation of young people who have been left behind and 
radicalized after years of war. Chechnya without Chechens is 
unacceptable policy.
    Third, the Chechnya war has caused a hemorrhaging of not 
only blood, but money. A reasonable argument to Russian 
authorities in the economic summit is that if the war stopped, 
enormous sums of money would be freed for the Federation-wide 
health and education programs that Rossiia badly needs. 
Incentives to reinforce peace negotiations could be promised by 
suggesting future backing for humanitarian support, for social 
programs, and for emergency relief throughout the North 
Caucasus and in selected other regions: for instance, aid for 
recovery from the Sakha Republic's recent flooding.
    Fourth, and finally, Rossiia is likely to remain an 
asymmetrical quasi-federation for a long time. We should 
somehow convince Russian colleagues and Duma parliamentarians 
that one of the fastest, most polarizing ways to stimulate 
secession is by redistricting from above. Changes in republic, 
regional, and district borders at all levels must be negotiated 
and not decreed. We also should diplomatically make clear that 
it is not in our interest to have Rossiia break into numerous 
or even seven regional parts.
    In sum, the single most dangerous scenario for Rossiia is 
polarization resulting from unilateral, from above, radical 
ethno-national homeland boundary changes. Instead of 
regularization, it can result in subversion, chauvinist 
nationalism, susceptibility to radical religious influences, 
and the very chaos President Putin has been trying to avoid. So 
far, federalism has been from above, from below, and nowhere.
    [The prepared statement of Dr. Balzer follows:]

          Prepared Statement of Dr. Marjorie Mandelstam Balzer

     FEDERALISM IN RUSSIA [ROSSIIA]: FROM ABOVE, BELOW OR NOWHERE?

Introduction
    As economic, political, and military crises inside the Federation 
of Russia [Rossiia] worsen, debates intensify over whether central 
Moscow policies and practices aggravate the fissures of separatism and 
nationalism. To probe issues underlying this still unfolding process, 
diverse ways that republic representatives have been responding to 
chaos and attempts to reassert central control should be explored. 
Through study of the crisis-driven 1990s, enormously painful to the 
victims of war and economic deprivation, we can learn much about the 
dynamics of polarization and the politics of social and cultural 
identity. Understanding how groups shape and reshape their nationalism 
in times of travail, on multiple levels, involves listening to how 
politicized voices shift and adapt within various social and cultural 
contexts.
    The secession attempts of the Chechens from Russia have a long 
history, aggravated by two 1990s brutalizing wars that have not 
subsided, despite President Putin's protestations of peace at hand. 
While President Putin's handling of Chechnya is the opposite of a 
reasoned federal strategy, other aspects of his policies come closer to 
a negotiated federalism and also represent attempts to become a 
populist president. Images of President Putin piloting a fighter plane 
in Chechnya contrast with his smiling participation at the annual 
Turkic Sabbantui summer festivals of Tatarstan and Bashkortostan, where 
he went to court and cajole the presidents of these republics in 2000 
and 2001 respectively. These public displays were noticed by my friends 
in the parliament of the Sakha republic, where surprised deputies, 
seeing President Putin in shirt-sleeves and knowing his KGB background, 
proclaimed ``he has gone to the people, he is appealing to the 
public.'' Like President Yeltsin, President Putin has been using a 
combination of carrots and sticks to attempt to manage the unwieldy 
federation he inherited. Unlike President Yeltsin, President Putin has 
shortened the carrots and strengthened the sticks. Leaders in the 
republics have been put on notice that all of the carrots have sticks 
behind them.
    The main message of this testimony is that most of the republics 
inside of Russia are not secessionist, and not likely to become 
dominoes in a potential aftermath of any successful, negotiated 
Chechnya secession. However, the potential for radicalization and 
polarization exists, depending on central policies and on center-
republic dynamics. The region where radicalization is greatest is the 
North Caucasus, especially among the neighbors of Chechnya, where the 
outpouring of Chechen refugees, including embittered, unemployed, and 
poorly educated youth, has become a serious destabilizing problem made 
worse by recent Russian military atrocities in villages near the 
unstable Chechen-Ingushetia border.
    History matters. The ``matrushka-doll'' federation that President 
Putin inherited is multi-leveled, complex, asymmetrical and entrenched. 
(See table 1.) Borders involving ethnic-based territories are nearly 
impossible to change without dangerously violating various ethnic 
groups' understandings of what constitutes their rightful homelands. 
The legacies of the federation adapted from the Soviet Union mean that 
the geographic structure of Russian federal politics is only poorly 
analogous to the multicultural United States, with the possible 
exceptions of our Native American treaty-based reservations and Puerto 
Rico. Thirty-five ethnic-based political-administrative divisions 
(Republics and Okrugs) take up about one third of Rossiia's territory, 
while non-Russians are less than one fifth of the country's population. 
This awkward position has evolved because of the local histories of 
indigenous homelands, where large influxes of Slavic peoples became 
normal during the Russian imperial and especially the Soviet periods.
    Demography matters. In most of the ``ethnic-based'' republics of 
Russia, the local ``titular'' ethnic group has a demographic plurality 
but not a majority. (See table 2.) These are ``swing vote'' republics, 
such as the Sakha Republic, Altai, Kalmykia, Marii El, and Udmurtia, 
where referendums on central policies could matter and electoral 
candidates backed by the Putin administration can be contested. These 
are areas where the zig zags of center-republic dynamics are especially 
sensitive and where ethnic relations are very important, with tensions 
potentially magnified by policy mistakes or local inter-ethnic 
discrimination scandals. In the 21 republics, only 5 had majority 
titular populations as the Soviet Union broke up, and more recently one 
of these, Chechnya, has been nearly emptied of its civilian Chechen 
population. The others are the Chavash Republic (Chuvashia), Tyva 
(Tuva), and Kabarda-Balkaria, listed in the order of their majorities. 
By the 2002 census, Tatarstan is likely to be included in this list, 
with many Tatars coming home to their republic in the 1990s. In 16 of 
the republics, non-Russians are considerably less numerous than the 
Russians. However, this did not stop some republics, such as Karelia, 
Khakassia and Komi, from being in the forefront of the so-called 
``parade of sovereignties'' in 1990-1991.
    Names and cultural symbols matter. The official name the Federation 
of Rossiia, which signals its multiethnic composition, is preferred 
here instead of Russia, with its more monocultural connotation. Many 
non-Russians call themselves ``Rossiany,'' citizens of Rossiia, not 
``Russkie,'' Russians, a distinction lost in English. They also have 
specific, sometimes recently politicized, names for their republics, 
and deserve to have these names used. This includes the Sakha Republic, 
often called by Russians in the Putin administration Yakutia, and Tyva, 
usually called Tuva. President Putin recently acknowledged name 
sensitivities by signing a decree endorsing Chuvashia as the Chavash 
Republic. But he has acknowledged such politically sensitive name 
changes unevenly, and has not supported the right of republic citizens 
to state their nationalities in their passports. A compromise was 
recently found for Tatarstan to have a separate page in the Tatar 
language in Tatarstan passports. The Altai Republic (formerly Gorno-
Altai) is surveying its population to decide if an insert in the Altai 
language is worth the expense. Each of the republics has its own seals 
and flags, many generated through competitions among local artists. 
Most have a local language name for their newly constituted parliaments 
and new language programs to compensate for past ``unbalanced 
bilingualism'' that favored Russians.
    Theory matters. A premise of this testimony is that the Russians, 
in the multiethnic negotiated community of Rossiia, are ``ethnic'' too, 
since they are subject to some of the same tensions and striving that 
the non-Russian minorities within the fledgling federation have been 
feeling. Indeed, the term ``ethnonationalism,'' merging a distinction 
between nationalism and ethnicity, as discussed by Walker Connor (1994) 
and Leokadia Drobizheva (1999), may be appropriate for the mild, 
nonchauvinist nationalism of many of the groups inside Rossiia. While 
many Russian actions potentially labelled as nationalism have been 
consolidation-oriented and defensive, others, most clearly those 
involving Chechnya, have been counter-productively aggressive and 
chauvinist against non-Russian minorities. The rekindling of the 
Chechnya war puts debates about justifiable ``patriotism,'' 
``nationalism'' and ``defense against terrorism'' into sharp relief. 
With Russian nationalism increasing, it becomes harder for President 
Putin to stimulate policies enabling a civic-society to develop in both 
the ethnic-based republics and the Russian-led regions of the 
federation.

(Mis)managing Federalism
    Major points of contention between the republics and President 
Putin's administration include resource competition and the related 
demise of bilateral treaties, changes in republic constitutions, 
electoral politics at multiple levels, and administrative 
redistricting. Questions of corruption, emergency aid programs, and the 
ramifications of legal reform cross-cut these issues and sometimes 
enter into the rhetoric of mutual reproach.
    Resource competition. While in the Soviet period, so-called 
``autonomous republics'' within the Russian Union Republic got less 
than a 5% share of their own resources, the increasingly self-assertive 
republics negotiated far greater shares in the 1990s, in some cases by 
playing brinkmanship tax withholding games. Bilateral treaties became a 
major mechanism under President Yeltsin, starting in 1994, for 
negotiating distributions of resources, with industrialized Tatarstan 
leading the process, and energy rich Bashkortostan and diamond rich 
Sakha Republic gaining important concessions as well. By the time the 
treaty process ended in 1998, 46 Russian-led regions and ethnic-based 
republics had garnered varying degrees of advantages. Norms for 
allocations of revenues going to federal and regional budgets before 
2000 became approximately 51% and 49%, but under President Putin the 
federal share increased to 63%. More republics subsequently became 
``donors'' within the budget process, meaning they are not receiving 
federal equalization transfers after taxes. In 2000, these included 
Komi, Tatarstan, Bashkortostan, and Sakha.
    Recently the leader of the Republic of Marii-El, hoping to curry 
favor with President Putin, unilaterally rejected his republic's power-
sharing treaty with the central government (along with the heads of 
three Russian-led regions). He could see that the 2001 commission 
established by President Putin to divide powers among governmental 
levels has as one of its goals the cancellation of these treaty 
arrangements. A warning of this policy came in 2000, when President 
Putin renounced significant aspects of the bilateral treaties with 
Tatarstan and with the Sakha Republic. (I was sitting at what felt like 
a ground-zero, the Sakha parliament, when deputies heard of his 
announcement and ventilated bitterly. But the next day, several 
admitted that the treaty was due to expire and would have to have been 
renegotiated anyway.)
    Cross-cutting the new budget trends have been emergency funds 
flowing back to the republics, including extensive subsidizing of 
Dagestan (given its proximity to Chechnya) and the support of refugee 
camps in Ingushetia. In this category should be substantial 
reconstruction money for Chechnya. Several plans (including one created 
by former Nationalities Minister Valery Tishkov) are circulating, but 
monies have been notoriously diverted or not forthcoming.
    Relief expenditures also include the support of programs through-
out the North to help Russian out-migration from previously subsidized 
towns with collapsed economies, as well as humanitarian reconstruction 
for flood victims suffering, for example, in the Sakha Republic in 1998 
and, especially, in 2001. Sakha and Russian leaders of the Sakha 
republic, in a good example of civic mindedness and interethnic 
cooperation, have jointly appealed to central authorities. President 
Putin made a personal and effective trip of solidarity to the main 
flood-devastated town of Lensk, which is mostly ethnically Russian. His 
attempt to place some of the burden of funding on the selling of 
diamond company ALROSA stock was less appreciated, however.
    Reconciling Constitutions. President Putin has made the 
identification and rectification of legal discrepancies between the 
Federation of Rossiia's constitution and the republic constitutions a 
top priority. Contrary to some conspiracy theories, many of these 
discrepancies occurred for the relatively simple reason that many of 
the republic constitutions were written and ratified in the early 
1990s, before Russia managed to get its constitution passed by its 
Duma. The acceptance of republic constitutional changes recommended by 
Russia's supreme court has been relatively smooth in many cases, which 
is why President Putin's preoccupation with the formal legal aspects of 
this has puzzled some participants in the process. Kalmykia, Altai, and 
Tyva, among others, have been named in the local press as having 
revised their constitutions quite quickly.
    Other republics have been less compliant, including Chavashia, 
Tatarstan, Bashkortostan, and Sakha. In the Sakha Republic case, a huge 
63 of 144 articles were declared nonbinding by Russia's supreme court. 
The Sakha parliament (optimistically called Il Tumen, or Council for 
Accord) discarded aspects deemed minor and has appointed yet another 
committee to reconcile the constitutions ``on the basis of federal 
norms.'' However, the main points seen as unjustified meddling in the 
internal affairs of the republic center on the wording of Sakha's 
declaration of sovereignty, the ability of Sakha Republic to have its 
own citizenship together with the citizenship of Rossiia, and, 
predictably, the ownership of underground resources, given the enormous 
mineral wealth of the republic. A further issue is qualifications for 
republic president, on the basis of age, residency length, and language 
ability.
    Electoral politics. President Putin has attempted to change the 
rules of the game of how elections are run at multiple levels of the 
federation. He has done this through legal reform of how parties are 
defined (their membership must cross-cut republics and regions), and 
through declarations concerning qualifications of the presidents of the 
republics, including their rights to third terms. He or his 
representatives have also publicly backed specific candidates, not all 
of whom have subsequently won their elections.
    One relevant issue concerning republic politics has been debate and 
back tracking on the question of which republic presidents may run for 
a third term, a deviation from the Federation of Rossiia constitution. 
In Spring 2001, Duma deputies passed a Putin-backed law enabling a huge 
number (69) of regional and republic leaders to have this right, but 
the Duma subsequently reduced the number to a handful. Some theorized 
that quid pro quos for republic president cooperation had been 
negotiated behind the scenes. In the process, interesting discrepancies 
emerged. For example, President Mintimer Shaimiev of Tatarstan was 
endorsed for a third term in a post-facto exercise, after his republic 
parliament had also ensured his legal right to a third term. President 
Mikhail Nikolaev of the Sakha Republic, who had not gotten his 
parliament to endorse a third term, was first supported and then 
dropped in the political maneuvering.
    In President Putin's millennium 2000 address, he appeared to 
advocate two contradictory principles: democracy for the republics and 
regions, including their continued right to elect their own officials 
at multiple levels, and a more authoritarian right of the president to 
remove elected officials from office. While the right of removal must 
now be backed by a criminal conviction, this is one reason why some in 
the republics are calling his rule creeping authoritarianism. When he 
was first elected, he also tested a possible trial balloon by 
suggesting that republic presidents and regional governors be appointed 
by the president. This provoked enough of an uproar to be quietly 
dropped, since it is notoriously difficult to take away a democratic 
right once it has been enjoyed.
    Administrative redistricting. Instead of appointing republic 
presidents, in 2000 President Putin created his famous 7 mega-
districts, using the larger regional military districts as a basis for 
their borders. The districts are (moving from East to West to South): 
Far East, Siberia, Urals, Northwest, Central, Volga, and the North 
Caucasus.
    Each district has a president appointed governor-general, who 
answers directly to President Putin. Nearly all the first appointees 
have military or intelligence backgrounds, with the exception of one 
former diplomat (Leonid Drachevski to the Siberia district) and one 
former prime minister-economist (Sergei Kirienko to the crucial Volga 
district). Their roles, Putin insists, are carefully delineated and 
contained. Most have been busy following orders concerning the 
reconciliation of the constitutions and the stream-lining of economic 
relations in their regions. Critics, including some of President 
Putin's own nationality advisors and ministers, have pointed out that 
eventually such meta-districts could become the basis for viable 
secessionist tendencies. The argument emphasizes that smaller, 
economically and politically powerless regions and republics would have 
less chance of becoming full-fledged independent states, and most would 
have no external borders.
    Debates abound as to whether the mega-districts are working or 
represent a new layer of potential bureaucratic confusion at best and 
corruption at worst. Republic authorities are nervous about their loss 
of direct lobbying access to the Kremlin, and angry about which cities 
have been chosen as capitals of the districts. The only silver lining 
concerning these districts, given both blatant and latent opposition to 
them in the republics, is that they may satisfy President Putin's taste 
for redistricting from above. He has in several speeches suggested even 
more radical redistricting: that the asymmetrical federation would be 
better off as a more controllable, symmetrical country of 30-50 
regions. Such statements, the execution of which would involve 
extensive boundary changes, are deeply frightening to many non-Russians 
living in their established ethnicity-based republics and smaller 
districts (okrugs). Again, it is dangerous to remove existing rights.
    More organic, ``from below'' or negotiated redistricting may be 
possible, however. The strategically located Altai Republic, on the 
border with Kazakstan, has rejected its larger, neighboring Altai 
Krai's greedy, energy pipe-line oriented call for a merger. But a 
process of merging budgets already has begun between one of two Buryat 
districts (Ust-Orda) with its encircling Irkutsk region. This 
negotiation should be seen in the larger historical context of the 
gerrymandering of Buryat territory, according to Stalin's nationalities 
policies. Some Buryats have also called for a merging of the three 
Buryat territories (Buryat Republic, Ust-Orda, and Agin-Buryat).

Conclusions
    President Putin, addressing an Assembly of the Peoples of 
Bashkortostan in June, 2001, proclaimed proudly ``Rossiia [Russia] has 
an absolutely unique place on Earth, with its enormous number of 
nations, nationalities, languages, and cultures . . . Its uniqueness 
consists in that over the centuries, practically 1,000 years, this 
mixture of peoples and different ethnicities have lived harmoniously.'' 
He sounded like a Soviet official propounding the friendship of the 
peoples. Interethnic harmony, including high rates of interethnic 
marriage, has been part of the history of the peoples of today's 
Russian federation. But these romanticized friendships have been sorely 
tried by experimentation that began with Russian imperialism, continued 
with many of Stalin's nationalities policies, and have been inflamed by 
the Chechnya war and its cover-up. As my colleague Paul Goble has said, 
the best antidote to chauvinist brands of nationalism is a well-managed 
federalism.
    What can the U.S. do to encourage Rossiia to practice what 
President Putin preaches about mixtures of peoples living harmoniously? 
We can only influence on the margins, but we do have some leverage. 
While Russians are understandably averse to being lectured by 
Americans, we can encourage more civic and less nationalist, chauvinist 
behavior on the part of central and regional authorities by investing 
directly in those regions and republics where relatively greater 
efforts are made at civil society.

          1) We can attempt to deal directly with regions and 
        republics, sometimes bypassing Moscow entirely, although taking 
        care that this not be perceived as a new round of espionage or 
        secession-mongering. While some authorities on the regions and 
        republics, including some of President Putin's advisors in 
        Moscow, tend to think of the republics as in general more 
        corrupt ``ethnocracies'' than the Russian-led regions, 
        corruption seems to be an equal opportunity phenomenon. We can 
        try to reward both Russian-led regions and ethnic-based 
        republics for greater transparency in economic relations.

          2) We can encourage our allies in Europe to reinforce calls 
        for negotiation, and to address major human rights complaints. 
        The recent call of the OSCE for negotiations to resume over 
        Chechnya, including with the elected president Aslan Maskhadov, 
        is a step in the right direction. A political settlement is 
        crucial, possibly including phased independence for Chechnya. 
        At the same time, good faith reconstruction efforts should be 
        made in Chechnya, to help bring refugees home and to start the 
        painful process of educating a whole generation of young people 
        who have been left behind and radicalized after years of war. 
        Chechnya without Chechens is unacceptable policy.

          3) The Chechnya war has caused a hemorrhaging of not only 
        blood but money. A reasonable argument to Russian authorities 
        at an economics summit is that if the war stopped, enormous 
        sums of money would be freed for the federation-wide health and 
        education programs that Rossiia badly needs. Incentives to 
        reinforce peace negotiations could be promised by suggesting 
        future backing for humanitarian support for social programs and 
        emergency relief through-out the North Caucasus and in selected 
        other regions.

          4) Rossiia is likely to remain an asymmetrical, quasi-
        federation for a long time. We should somehow convince Russian 
        colleagues and Duma parliamentarians that one of the fastest, 
        most polarizing ways to stimulate secession is by redistricting 
        from above. Changes in republic, regional, and district borders 
        at all levels must be negotiated, not decreed. Just as 
        President Putin has said he needs a public consensus to move 
        Lenin's body, so too a public consensus is needed for boundary 
        changes. We also should diplomatically make clear that it is 
        not in our interests to have Rossiia break into numerous, or 
        even 7, regional parts.

    In sum, the single most dangerous scenario for Rossiia is 
polarization resulting from unilateral, radical ethnonational homeland 
boundary changes. Instead of regularization, it can result in 
subversion, chauvinist nationalism, susceptibility to radical religious 
influences, and the very chaos President Putin has been trying to avoid 
with his ominous phrase ``the dictatorship of law.'' So far, federalism 
has been from above, from below, and nowhere.

    Table 1: Post-Soviet Independent States and Russian Federation 
                      (Rossiia) Ethnic Components


----------------------------------------------------------------------------------------------------------------
                                           Republics Signing The Federal Treaty,       Ethnic-Based Regions,
     Post-Soviet Independent States                 Bilateral Treaties                       Districts
----------------------------------------------------------------------------------------------------------------
Armenia [C=Commonwealth]                  Adigei                                  Agin-Buryat
Azerbaijan [C]                            Altai (Gorno-Altai)                     Ust-Orda Buryat
Belorus [C]                               Bashkortostan                           Chukotsk
Estonia [B=Baltic]                        Burya                                   Evenkt
Georgia [C]                               Chavash (Chuvashia)                     Eveno-Bytantaisk
Kazakstan [C]                             Dagestan                                Evrei
Kyrgyzstan [C]                            Ingushetia                              Khanty-Mansi
Latvia [B]                                Kabarda-Balkar                          Komi-Permiak
Lithuania [B]                             Kalmykia                                Koryak
Moldova                                     (Khalmg Tangch)                       Nenets
Russian Federation [C]                    Karachai-Cherkess                       Yamalo-Nenets
Tajikistan [C]                            Karelia                                 Dolgan-Nenets
Turkmenistan [C]                          Khakassia                               Taimyr
Ukraine [C]                               Komi                                      (Nganasan)
Uzbekistan [C]                            Marii-El (Mari)
                                          Mordva
                                          North Ossetia
                                          Sakha (Yakutia)
                                          Tatarstan
                                          Tyva (Tuva)
                                          Udmurt

----------------------------------------------------------------------------------------------------------------
Major Disputed Areas: Abkhazia, Chechnya (Republic of Ichkeria), Crimea, Dniester, Nagorno(ny)-Karabakh, North
  and South Ossetia, North Kazakstan.
Ethnic Representation Dynamics: Five districts (Adygei, Gorno-Altai [now Altai], lngushetia without Chechnya,
  Karachai-Cherkessia, and Khakassia) were upgraded to republic status in the 1992 Federal Treaty. This included
  an lngushetia border delineation. Many ethnic groups, such as the Kurds of the Caucasus or the Nivkh of the
  Siberian Far East, are not represented here because they do not have official territorial jurisdictions. In
  Soviet censuses, 26 ``small-numbered peoples of the North'' were usually grouped (in order of size): Nenets,
  Evenk (Tungus), Khanty (Ostiak), Even (Lamut), Chukchi, Nanai (Goldy), Koryak, Mansi (Vogul), Dolgan, Nivkh
  (Gilyak), Selkup, Ulchi, Itelmen (Kamchadal), Udegei, Saami (Lapp); Eskimo (Yupik); Chuvansty; Nganasan;
  Yukagir; Ket; Orochi; Tofalar; Aleut; Negidal; Enets; Orok. Some Federation components were legally
  constituted since 1989. For example, the Eveno-Bytantaisk district (raion) was created within the Yakut-Sakha
  Republic as a homeland for the Even people in 1989.
President Putin's 7 Mega- [Meta-, Military] Districts: Far East, Siberia, Urals, Northwest, Central, Volga,
  North Caucasus (Southern) (each with Presidential appointee administrators).


                   Table 2: Demography and Ethnicity


------------------------------------------------------------------------
Republics of Rossiia in Sovereignty    Percent Titular       Percent
        Declaration Sequence             Nationality         Russians
------------------------------------------------------------------------
North Ossetia......................  53.0                29.9
Karelia............................  10.0                73.6
Khakassia..........................  11.1                79.5
Komi...............................  23.3                57.7
Tatarstan..........................  48.5                43.3
Udmurtia...........................  30.9                58.9
Sakha (Yakutia)....................  33.4                50.3
Buryatia...........................  24.0                70.0
Bashkortostan......................  21.9                39.3
Kalmykia...........................  45.4                37.7
Marii El (Mari)....................  43.3                47.5
Chavash (Chuvashia)................  67.8                26.7
Gorno-Altai........................  31.0                60.4
Tyva(Tuva).........................  64.3                32.0
Karachai-Cherkess..................  40.9                42.4
Checheno-Ingushetia................  70.7                23.1
Mordova............................  32.5                60.8
Karbarda-Balkaria..................  57.6                31.9
Dagestan...........................  27.5 (Avars)         9.2
Adegei.............................  22.1                68.0
------------------------------------------------------------------------



------------------------------------------------------------------------
                                           Number          Percentage
------------------------------------------------------------------------
Russian Federation; Russians.......  119,865,946        81.5
Russian Federation; Non-Russians...   27,155,923        19.5

Largest groups:
  Tatar............................   5,522,096          3.8
  Ukrainians.......................   4,362,872          3.0
  Chavash..........................   1,773,645          1.2
  Bashkir..........................   1,345,273          0.9
  Belorusans.......................   1,206,222          0.9
  Mordva...........................   1,072,939          0.8
  Chechen..........................     898,999          0.7

------------------------------------------------------------------------
Sources, Explanations, 2002 census projections: Natsional'nyi sostav
  naseleniia SSSR (1991), from the 1989 census; Argumenty i fakty (March
  1991). The Chechen-Ingush Republic split in 1992. Many ethnic groups
  have substantial populations living outside their republic, especially
  the Tatars, and, with the Chechnya wars, the Chechens. Since 1991,
  Russian influx into the federation as a whole has raised their
  proportion to about 83%, Russian outflow from specific ethnic-based
  republics, especially Chechnya and Tyva, also should be noted. By the
  2002 census, Russian percentages in most of the ``ethnic-based''
  republics will have decreased, with percentages of the titular
  nationalities substantially increased. However, as the order of the
  ``parade of sovereignties'' in 1990-01 indicates, non-Russian
  demographic dominance in a republic is not necessarily a predictor of
  radicalism.


    The Chairman. Thank you very much. Mr. Paul Goble.

     STATEMENT OF PAUL A. GOBLE, DIRECTOR, COMMUNICATIONS 
  DEPARTMENT, RADIO FREE EUROPE/RADIO LIBERTY, WASHINGTON, DC

    Mr. Goble. Thank you, Mr. Chairman.
    The Russian President, Vladimir Putin, has regularly 
insisted that he has had to act with vigor and dispatch against 
the Chechen drive for independence in order to prevent the 
disintegration of Russia. That argument has served him very 
well. It has both generated support among Russians for what he 
is doing and, at least equally important, it has restrained 
Western criticism of Russian actions in the North Caucasus. But 
an examination of his claims suggests that it is not only 
false, but that his campaign against Chechnya and the West's 
failure to hold him and Russia accountable may ultimately very 
well contribute to the problem he says he is fighting against 
and, even worse, to other far more serious problems. That is my 
subject here, and I want to praise you, Mr. Chairman, and the 
committee, for holding this hearing on such an important 
subject and also to thank you for inviting me to take part. I 
have entitled my remarks, ``Are there more Chechnya's ahead for 
Russia?'', and I've submitted them for the record. I will 
summarize them here.
    This morning, I would like to look at three different 
aspects of this problem. First, I want to examine the nature of 
Mr. Putin's claim. I cannot do that without recalling the 
events of the late 1980's when we were regularly told that we 
could not support the Baltic drive for the recovery of 
independence because it might undermine Gorbachev and that, of 
course, the Balts had to work out a staged development to 
independence and that we must not criticize. In fact, by 
holding the Baltic countries in as long as he did, Gorbachev 
lost all the other republics. But since it has been mentioned 
about the dangers of ethnic engineering, perhaps this committee 
should recall that, on the very day that Boris Yeltsin, in the 
presence of Belorussia and Ukraine, effectively dismembered the 
Soviet Union at Belovezskaja Pusha, Mikhail Gorbachev issued a 
call for redrawing the lines inside the USSR to make it have 50 
States. Originality was never one of his long suits.
    Second, I want to argue that the threat Putin has outlined 
is not a real one, at least not real now in the sense that he 
and his spokesman usually claim. And third, I want to suggest 
that Putin's actions and, even more, the West's restraint in 
criticizing them, are having the unintended consequence of 
ethnicizing Russian life and, thus, undermining the chances for 
stability and progress toward democracy in the country as a 
whole.
    More than any other issue, Chechnya has been Mr. Putin's 
issue. He has used it to generate support for his election as 
President and then to maintain his popularity at home and gain 
grudging respect from abroad. By arguing that the Chechen drive 
for independence threatens the disintegration of Russia as a 
whole, Putin has, of course, played on the deepest insecurities 
of a Russian public that has suffered a great deal over the 
last decade. He has used it to revive an us-versus-them 
attitude between Russians and the West, to generate the kind of 
surrogate national enthusiasm for an increasingly authoritarian 
approach to the media and elsewhere, and he has used it to 
restrict Western criticism of his new toughness, arguing that, 
``You must allow me to do this because I am working for you.''
    But Putin has implicitly acknowledged the factual weakness 
of his own claims by constantly coming up with yet newer 
arguments as to why he is using overwhelming force in the way 
that he is in the North Caucasus. Over the past year, he has 
gone from talking about the disintegration of Russia to 
invoking the bogeyman of Islamic fundamentalism to insisting 
that he is defending the West from Islamic terrorism. Each of 
these arguments, of course, has found some supporters in both 
Russia and the West, but Putin's apparent need to come up with 
more than one justification for what he is doing are just like 
my children's explanation for why they have screwed up the 
latest time. When you have to come up with more than one 
reason, the odds are good that none of them are the truth. And 
I think in Putin's case, that is certainly true.
    Now, Putin has been wrong about Chechnya and about Russia 
as a whole on this issue because he fundamentally does not 
understand that Chechnya never wanted to be part of Russia, 
never wanted to be part of the Soviet Union, and never wanted 
to be part of the Russian Federation. But his errors that 
Chechnya must remain part of Russia lest some other non-Russian 
entities leave, have been aided and abetted by the attitudes 
and public positions of Western governments.
    When the Soviet Union collapsed in 1991, many of those in 
the academic and policy communities, who insisted that the 
Soviet Union would never disintegrate on the basis of ethnic 
aspirations, immediately reversed themselves and said that the 
future of the Russian Federation would be the past of the 
Soviet Union; namely, it would come apart along ethnic lines. 
That argument was superficially attractive, but, for some of 
the reasons you've heard already this morning, it is not real. 
Most of the other entities did not have the numbers, did not 
have the location, and did not have the historical background 
that would drive them to seek independence.
    But--and this is the more important thing--this Western 
assumption led the West to approach Putin in ways that have 
made the situation worse, because we have come to define the 
success of the post-1991 Russian enterprise in terms of border 
stability. Chechnya was the exception. Its leaders aspired to 
independence precisely on the model of the Baltic States. 
Djokhar Dudaev, the first President of Chechnya, had spent 3 
years in Estonia immediately before becoming President of his 
own country in the Caucasus, and he assumed that Chechens had 
an equal moral right to be a country, as did the Estonians.
    The consequences of the West's acceptance of Putin's view 
on territorial integrity has led many to assume that we must 
defend territorial integrity no matter what. That argument was 
made to defend the existence of the Soviet Union. But 
unfortunately, since 1991, several things have happened that 
have made it worse. While we talked about the end of the Soviet 
Union initially in terms of the self-determination of the 
nations, we suddenly shifted to no-secession from secession, 
which had the effect of trivializing what the non-Russian 
peoples had achieved in 1991 and put the West on record against 
any further independence. In short, we became the last 
guarantor of Stalin's nationality policy.
    Second, it led another earlier administration into becoming 
almost a cheerleader for Russian actions against Chechnya. 
American officials, as you know, compared Yeltsin's actions in 
the first Chechen war to President Abraham Lincoln's actions 
during the American Civil War, which was an obscenity. But 
worse, it recalled the situation in the late 1960's and early 
1970's when the international community, in the name of border 
stability in Africa, tolerated and even aided the genocide of 
the Biafran people so that they could not become a country on 
their own.
    And third, the fact that we have not criticized openly, 
harshly, and specifically what Putin and his regime have done 
in Chechnya has contributed to a new and growing Russian sense 
that the West will not hold Russia accountable to anything. And 
that is triggering a kind of Russian exceptionalism that will 
make it difficult, if not impossible, to integrate Russian into 
the modern democratic world.
    But Putin's obsession with Chechnya does reflect a more 
fundamental problem, one that I think should be attracting more 
attention in the West than it has so far, and that is the 
problem of the Russian community. When we talk about ethnic 
groups in the Russian Federation, the first and most important 
ethnic community is the Russian community, and it is very 
special. The tragedy is that Russian integration, as a 
community, is much less strong than the integration of the 
Chechens or others. And that flows back from a historical 
record in which the Russian state became an empire before the 
Russian people consolidated as a nation, as a result of which 
the Russian state has never been a nation state, but the 
Russians have remained a state-defined nationality, one whose 
strength tracks with the power of the state rather than acts as 
a counterweight to it.
    Putin's actions in Chechnya have not and will not end the 
Chechen drive for independence. Chechnya will be an independent 
country. But his brutal military campaign there has had three 
effects; one that he said he hoped for and two that entail 
risks for the future of Russia and its relations with us. By 
using force against Chechnya, Putin has, in fact, intimidated 
many of the other non-Russian peoples in the Russian 
Federation. Many of their leaders have told me that what they 
understand from Chechnya is, you can pursue all the 
independence you want as long as you don't declare it. As long 
as you do not say, ``We are going to leave,'' you can act as 
independently from Moscow as possible. That is certainly the 
calculation behind people like President Mintimir Shaimiev, of 
Tatarstan, who is taking a very tough line and reminding 
Moscow, even today, even as we speak, that Tatarstan did not 
sign the Federation treaty either. And the stripping of its 
Federal--its power-sharing arrangement, which Putin has talked 
about, could end its relationship with Russia.
    That is problematic enough, but there are two other things 
which I would like to end with. The first is that Putin's 
policies in Chechnya have led to that republic's Afghanization. 
By destroying so much of the republic's infrastructure and by 
killing or driving out so many of its people, Putin and his 
government have effectively destroyed the basic cultural 
transmission mechanisms there. That has led to a rise of young 
men who know little of anything but fighting, who have not been 
acculturated to the Chechen nation and who are available for 
radicalization. That is what happened in Afghanistan. That is 
why the Taliban happened.
    I happen to know President Djokhar Dudaev, of Chechnya, and 
he once told me that he was a good Muslim who prayed three 
times a day. I did not point out that a good Muslim prays five 
times a day, but he had been a member of the Communist Party 
from the age of 18 and had been a major general in the Soviet 
Air Force, so perhaps that was not in the officer instruction 
manual.
    But the image of Chechnya as an inevitably Islamic force is 
wrong. It is being converted into that by the brutality of the 
Russian Government. And, as a result, Russia now faces a more 
intractable and dangerous enemy than it would have had it 
either allowed the Chechens to go for independence in 1991 or, 
if Moscow had at least observed the provisions of the 1996 
Khasavyurt Accords. It did neither, and it is going to lose 
this war.
    The other consequence of Putin's approach is likely to be 
far more dangerous for Russia's future, and that is the 
ethnicization of political life and the revival of the cult of 
force. In recent days, as you know, there have been reports 
that anti-Semitism is on the wane in Russia. That is great 
news. But it has been replaced by antagonism to people from the 
Caucasus, in general, and Chechens, in particular.
    The demonization of the Chechens by the Russian Government 
and the Russian media have contributed to acts of 
discrimination and violence that are not punished. Indeed, they 
are excused or praised. And I wonder how we would react to any 
other government in the world whose Defense Minister said, ``I 
am sympathetic and understand a Russian colonel who is on trial 
for killing a Chechen woman.'' Even non-Russians, who have 
never heard of Pastor Niemoeller and his observation about the 
ways violence against one group can spread to another, have got 
to be worried. And that is the risk that Mr. Putin has invited 
by his actions, a risk that increases as the demographic 
realities change.
    You have been given some numbers which are snapshots of 
where Russia is today ethnographically. The reality is that the 
Russian community is declining by almost a million a year, and 
the share of non-Russians in some of these areas will increase 
over time. I submit to you that those changes may matter more 
than the figures that we have at the present.
    I, personally, am very pleased that this committee, the 
Congress in general, and the American Government have begun to 
speak out more vigorously to demand that Russia seek a 
political solution in Chechnya. Many, of course, are still 
urging caution, lest we drive Putin supposedly into more 
nationalist or authoritarian directions--I find it difficult to 
understand what those might be--but we need to recognize that 
it is his actions and our failure to speak out vigorously that 
threatens the territorial integrity and political progress of 
Russia, far more than anything any Chechen or other non-Russian 
inside the Russian Federation has ever dreamed of doing. Thank 
you.
    [The prepared statement of Mr. Goble follows:]

                 Prepared Statement of Paul A. Goble *
---------------------------------------------------------------------------

    * The views expressed here are Mr. Goble's own.
---------------------------------------------------------------------------
               ARE THERE MORE CHECHNYAS AHEAD FOR RUSSIA?

    Russian President Vladimir Putin has regularly insisted that he has 
had to act with vigor and dispatch against the Chechen drive for 
independence in order to prevent the disintegration of Russia. That 
argument has served him well: it has both generated support among 
Russians for what he is doing and even more important it has restrained 
Western criticism of Russian actions there. But in fact, an examination 
of his claim suggests that it is not only false but that his campaign 
against Chechnya and the West's general failure to hold him and Russian 
accountable may very well contribute to the very problem that he says 
he is fighting against.
    That is my subject here, and I want to praise you, Mr. Chairman, 
and the committee for holding a hearing on this important subject and 
also to thank you for inviting me to take part.
    This morning, I would like to look at three different aspects of 
the problem: First, I want to examine the nature of Mr. Putin's claim 
and compare it with claims made by Soviet President Mikhail Gorbachev 
prior to the collapse of the Soviet Union and by Putin's predecessor, 
Russian President Boris Yeltsin. Second, I want to argue that the 
threat Putin has outlined is not a real one--or at least not real in 
the sense that he and his spokesmen usually claim. And third, I want to 
suggest that Putin's actions and the West's restraint in criticizing 
them are having the unintended consequence of ethnicizing Russian 
political life and thus undermining the chances for stability and 
progress toward democracy. Moreover, it reduces the likelihood that 
Russia will be able to prevent more ethnic violence and more moves 
toward national self-determination in the future.
A Politically Effective Claim
    More than any other issue, Putin has exploited the Chechen conflict 
first to generate support for his election as president and then to 
maintain his popularity at home and grudging respect from abroad. By 
arguing that the Chechen drive for independence threatens the 
disintegration of Russia as a whole, Putin has played on the deepest 
insecurities of a Russian public buffeted by more than a decade of 
unpredictable developments that have left an ever greater number of 
them impoverished and angry. He has used it to revive an ``us versus 
them'' attitude between Russians and the West, to generate a kind of 
surrogate national enthusiasm for his increasingly authoritarian 
approach to the media and other aspects of Russian life. And he has 
used it to restrict Western criticism of his new toughness, playing on 
Western weariness about the political upheavals in Russia and Eurasia.
    But Putin has implicitly acknowledged the factual weakness of his 
own claims by putting out a variety of other arguments as to why his 
use of overwhelming force in Chechnya is not only justified but must be 
supported by Russians and the international community. Over the last 
year, he has routinely invoked the bogeyman of Islamic fundamentalism 
as a reason for his actions. And most recently he has said that Russia 
is fighting the West's battle against terrorism by its actions in 
Chechnya.
    Each of those arguments has found some supporters in both Russia 
and the West, but Putin's apparent need to shift the justification for 
his actions simultaneously reflects his broader needs--after all, he 
has proclaimed this spring that he has ended the threats to the 
disintegration of Russia despite the ongoing fighting in Chechnya--and 
the fact that his original argument was never as impressive as he and 
his supporters in both Russia and the West often suggested.
Why Putin is Wrong on Chechnya and Russia as a Whole
    Putin has been wrong about Chechnya and about Russia as a whole on 
this issue, but his errors--that Chechnya must remain part of Russia 
lest other non-Russian entities within Russia leave--have been aided 
and abetted by the attitudes and public positions of Western 
governments.
    When the Soviet Union collapsed in 1991, many of those who had 
insisted that the USSR would never disintegrate on the basis of ethnic 
aspirations immediately changed course and insisted that the future of 
the Russian Federation would inevitably be the past of the Soviet 
Union: namely, it would be threatened with disintegration along ethnic 
lines.
    The argument was superficially attractive: After all, the Russian 
Federation, while more ethnically homogeneous than the Soviet Union had 
been, included 22 non-Russian autonomous state formations within it. 
Although these included only about 18 percent of the population, they 
covered some 53 percent of the territory of Russia as a whole. And many 
of them, especially in the immediate aftermath of the end of the Soviet 
empire, aspired to greater autonomy or even ultimate state 
independence.
    But this Western assumption was not only wrong on the facts of the 
case but carried with it some dangerous political implications that 
Putin continues to exploit and that appear to guide the thinking of 
many in the West. With regard to the facts, the non-Russian entities 
within the Russian Federation were less interested in, less capable of, 
and less able to appeal to the West for help. Only six of the 22 had 
non-Russian ethnic pluralities. Most were located in areas where the 
pursuit of independence was largely precluded either because they 
lacked access to the outside world or even were surrounded by ethnic 
Russian territory. Few of them had any recent experience with 
independence, and most concluded early on that independence was not an 
option, especially because of changed attitudes in Moscow and in the 
West.
    Chechnya was the exception: its leaders aspired to independence on 
the model of the Baltic States, it had suffered in ways that had 
created a genuine national movement, and it had a well-organized 
secular nationalist leadership that appealed to the world on the same 
basis that the non-Russian union republics of the former Soviet Union 
had done. But just as many in the West refused to demand that Gorbachev 
allow the Baltic countries to acquire de facto independence lest such 
demands drive him from his reformist path on other issues, so too many 
in the West have made the same calculation with Yeltsin and now with 
Putin.
    But with regard to the implications for the West, the assumption 
that Russia was threatened with immediate territorial disintegration 
that had to be countered had three dangerous consequences. First, it 
lead many in the West to assume that the maintenance of Russia's 
territorial integrity was necessary for progress on other issue. That 
led one earlier administration to shift its rhetoric on what had 
happened to the Soviet Union from a discussion of the end of empire to 
an insistence that there be ``no secession from secession,'' a shift 
that trivialized what happened in 1991 and put the West on record 
against any further independence. In short it put the West in the 
position of being the last guarantor of Stalin's nationality policy.
    Second, it led another earlier administration into becoming almost 
a cheerleader for Russian actions against Chechnya. American officials 
compared Yeltsin's actions in 1994-96 to President Abraham Lincoln's 
actions during the American Civil War. Worse, it effectively returned 
the West to the position it had adopted in the late 1960s and early 
1970s when it sanctioned a genocide of the Biafran people in Nigeria in 
the name of border stability in Africa.
    And third, this focus on territorial integrity had the effect of 
leading some in the West to excuse behavior in Chechnya first by 
Yeltsin and more recently and especially by Putin, thus contributing to 
a Russian sense that the West would not hold Moscow to the same 
standards it holds others to and thus helping to power precisely the 
kind of Russian exceptionalism that has made it difficult for Russia to 
integrate into the broader international community so often in the 
past.
    But Putin's obsession with Chechnya does reflect a more fundamental 
problem, one that should be attracting more attention than it has so 
far both in Russia and here. That is the problem of the Russian 
community itself. Strange as it may seem to many, it is the lack of 
integration of the Russian nation that explains much of Putin's fears 
and approach. Because the Russian state became an empire before the 
Russian people consolidated as a nation, the Russian state has never 
been a nation state but the Russians have remained a state-defined 
nationality, one whose strength tracks with the power of the state 
rather than serves as a counterweight to it.
    That puts Russia at odds with the situation in European countries 
and is ultimately why Russians find it difficult to accept the loss of 
the outer empire and fear that the disintegration of the Soviet Union 
will inevitably spread to the Russian Federation itself.
A Dangerous Precedent
    Putin's actions in Chechnya have not ended the Chechen drive for 
independence. Instead, his brutal military campaign there has had three 
effects, one that he and some others hoped for and two that entail 
risks for the future of Russia.
    By using force against Chechnya, Putin has in fact intimidated many 
of the other non-Russian peoples in the Russian Federation. Many of 
their leaders have concluded from the events in Chechnya that they can 
seek as much autonomy as possible but that the price of doing so is 
avoiding any moves that look like a drive to independence. That is the 
calculation behind the actions of Tatarstan President Mintimir Shaimiev 
and many others. But if these nations are intimidated, they are also 
offended, as Shaimiev and others have suggested. Indeed, some are angry 
and may now be more inclined to pursue an independent course should 
future circumstances allow.
    That is problematic enough. But there are two other consequences of 
Putin's actions in Chechnya with respect to Russia's future that are 
even more frightening. Putin's policies have led to the Afganization of 
Chechnya. By destroying so much of that republic's infrastructure and 
by killing or driving out so many of its people, Putin and his 
government have destroyed the basic cultural transmission mechanisms 
there. That has led to the rise of a new group of young men who know 
little of anything but fighting and who have not been acculturated into 
the Chechen nation. And they have become available for mobilization by 
extremist groups, often acting in the name of Islam.
    I knew and respected Chechen President Djokar Dudaev. In an earlier 
incarnation, he helped prevent Gorbachev from visiting on Estonia the 
kind of violence the Soviet president inflicted on Lithuania and Latvia 
in January 1991. Dudaev, who had been a major general in the Soviet air 
force and a communist from a young age, told me once that he was a good 
Muslim in that he prayed three times a day. Of course, good Muslims 
pray five times a day, but he was sufficiently secular that he did not 
appear aware of that. Dudaev's approach defined the Chechen national 
cause until the Russian military actions first of Yeltsin and 
especially now of Putin. And the Islamist and terrorist threats that 
Moscow regularly complains of are--just as is the case in Afghanistan--
the product of Russian actions rather than arising somehow naturally 
out of the Chechen milieu.
    As a result, Russia now faces a far more intractable and dangerous 
enemy than it would have had it either allowed the Chechen's national 
self-determination in 1991 or observed the terms of the 1996 Khasavurt 
accords. It did neither, and it is going to lose this war, just as 
almost every other colonial power has done. Unfortunately, the Chechnya 
that is likely to emerge just like Afghanistan after the Soviet 
invasion or Algeria after the French colonial war there will be a very 
different and less pleasant place than would otherwise have been the 
case. And equally unfortunately, the world is likely to blame the 
victims rather than the victimizers.
    The other consequence of Putin's approach in Chechnya that is 
likely to be even more dangerous for Russia's future is the 
ethnicization of political life there and the revived cult of the use 
of force. In recent days, there have been reports that anti-Semitism is 
on the wane in Russia. I for one celebrate that progress. But these 
reports have pointed out that there is a new enemy in Russia, the 
Chechen people. The demonization of the Chechens by the Russian 
government and the Russian media have contributed to acts of 
discrimination and violence by Russian officials and citizens against 
ethnic Chechens and others from the Caucasus. Few of these actions are 
ever punished, and many of them are justified, excused or even praised, 
as witness the outrageous remarks of Russian officials about a colonel 
who is accused of killing a Chechen woman.
    Even non-Russians who have never heard of Pastor Niemuller and his 
observation clearly understand about the ways violence against one 
group can spread to another. And that is a risk that Putin has invited 
by his actions.
    I am personally very pleased that this committee, the Congress in 
general, and the American government have begun to speak out more 
vigorously to demand that Russia seek a political solution in Chechnya. 
Many are still urging caution against doing so lest we drive Putin into 
even more nationalist and authoritarian directions. But in fact, it is 
his actions and our failure to speak out vigorously about them that 
threatens the territorial integrity and political progress of Russia 
far more than anything any Chechen or other non-Russian inside the 
Russian Federation has ever dreamed of doing.

    The Chairman. Thank you very much. We will start with 10-
minute rounds here. Let me pick up my questioning where you 
left off, Paul. As a result of this war, are the republics in 
regions with sizable Islamic populations becoming more critical 
of Putin, and is there a possibility they will attempt to gain 
independence?
    Mr. Goble. In 1991, there were no regions except Chechnya 
that were talking about independence. At the present time, 
there are a number of officials in Tatarstan--not the top 
officials, but a number of officials at lower levels--who are 
saying, ``You know, if this gets much worse, we will have no 
choice.'' In many ways, we are watching a recapitulation of the 
process of radicalization that took place in Soviet times. As 
has been properly pointed out, these places are not in the best 
position, you know, geographically or demographically, to 
pursue it, but there has been a radicalization of views.
    If you look at the debates over the last 6 months about 
whether you have an insert in the passport, whether you 
maintain your power-sharing treaty, and then you look at what 
is being said in the local press, there is a process of 
radicalization. I am not prepared to say that next week or 6 
months from now the Tatars are going to declare that, ``We're 
out of here.'' What I'm suggesting is that the ethnicization of 
political life, where attacking people on ethnic lines becomes 
acceptable, which is, in fact, what is going on in Russia 
because of the Chechen war, more and more non-Russians--and I 
would say the people of the Tatar-Bashkortostan area in the 
middle of the Volga are the first candidates for this and, 
second, some in Buriatia--are beginning to say things that 
suggest they are very disturbed about the future of the Russian 
Federation and what their place will be in it. Many of them 
wish the Chechens had never tried for independence, because 
they think they are suffering as a result. Again, repeating the 
kinds of things you have heard among Ukrainians about the Balts 
in 1989 and 1990.
    I am not suggesting there is a simple repetition. I am more 
worried about the poisoning of Russian political life than I am 
about the changing of borders, except that I believe Chechnya 
will be independent. I think no one has won a colonial war, 
effectively, and Putin is not going to be the first. But what 
you are seeing is a low-grade, below-the-top leadership 
discussion. I happen, for professional reasons, to read the 
Tatar and Bashkir press each day, OK, and I can tell you that 
there are articles and statements in there today that would not 
have been there 6 months ago and that there is a process of 
radicalization just below the official level.
    The Chairman. Dr. Solnick, you spoke of the uniqueness of 
Chechnya within the Federation. Would you expand on that? Why 
is it so different from any of the other areas?
    Dr. Solnick. Well, on my right here is someone who is more 
of an expert on Chechnya than I, but I think many of the 
problems that we encounter in Chechnya stem from that moment in 
1994 when the Federal Government--and Yeltsin, in particular--
had managed to get his constitution ratified. There were two 
republics that were not yet on board the new Federal structure: 
One was Tatarstan, the other was Chechnya. And many of his 
advisors urged that he use a treaty process to basically strike 
a deal with Tatarstan and strike a deal with Chechnya. And he 
went and did that with Tatarstan, and then it broke down with 
Chechnya. And the breakdown of that negotiation with Chechnya 
essentially got the republic off the rail.
    Now, why did that happen? I think a lot of that has to do 
with the geostrategic position of Chechnya--it sat atop a 
pipeline route--with internal politics in Chechnya--there was 
not an interlocutor for the Federal Government in Chechnya--
with the clan politics internal to the political structure in 
that republic. According to some accounts, the people that they 
were close to reaching agreement with were unable to deliver 
that agreement, and the Ministry of Defense wanted to display 
its ability to use force, and that was a lethal combination at 
that time. And once the action was made, there was no turning 
back because of the baggage that Chechnya brings.
    I will conclude with this--it took more czarist troops to 
incorporate Chechnya into the Russian empire than it did to 
repel Napoleon. So there is a long, long history here.
    The Chairman. Dr. Dunlop, would you like to comment on 
that?
    Dr. Dunlop. Yes, I think Steve has accurately described the 
background to the breakdown of relations, especially in 1994, 
between the Russian Republic and Chechnya. I do think--and I 
have written a book on this, on the antecedents to the first 
war; I published it in 1998--I do think that a deal could have 
been struck with General Dudaev, President Dudaev. As Paul has 
mentioned, he was very much a Soviet man. And he, all along, 
indicated that he wanted a negotiated settlement. I do fault 
the Russian side more than the Chechen side in that case. I 
think some kind of an associated arrangement could have been 
worked out. And when you think of the two wars fought since 
then, at enormous human and economic cost, one can say that 
Yeltsin and his team made a horrible mistake in 1994, and that 
that mistake is continuing today.
    The Chairman. One of the things I find as I travel Europe 
is the same kind of characterization of Chechnya that I have 
found with regard to the Balkans, namely Islamic fundamentalism 
and the radicalization of society. In other words, this is as 
much a religious uprising as anything else. Would any of you 
speak to that for a moment?
    Mr. Goble. If I might. The Chechens were Islamicized very 
late. They were Islamicized by Avar missionaries between the 
14th and 16th centuries. The Islamic overlay of the tight 
``clannic'' system meant that Islam was domesticated very 
heavily. The Naqshbandiyya and to a lesser extent, the Khalidi 
tariqyat of Sufism had an influence, but it was something where 
Islam became the basis for political unity under only one 
condition, and that was when you were attacked from the 
outside.
    As far as deep attachment--you know, the whole Middle 
Eastern idea of what Muslims are, something straight out of the 
popular press in this country--this was not a heavily Islamic 
place. This was not even like that in Daghestan, next door.
    There is an unfortunate tendency, in Europe and here, to 
think that once you have invoked the word ``Islam,'' you've 
explained the world. It is a kind of acceptable racism, I am 
afraid. If anyone explained European history by reference to 
the fact that almost everyone was a Christian, people would 
laugh. But if you say Islam causes something, this is 
considered scholarly insight. It is nonsense.
    The Chechen national movement, in 1989, 1990, and 1991, was 
entirely secular. They were not interested in promoting an 
Islamic state. Dudaev, as has been said, was a Soviet man. He 
was a very good Soviet man. He prevented Gorbachev from killing 
people in Estonia the way he had done in Lithuania and Latvia. 
He closed down the air-traffic control over Estonia to prevent 
Soviet paratroopers being sent into Tallinn on the third 
weekend in January, and he was responsible for saving Boris 
Yeltsin, who went to Tallinn on January 13, 1991. He got him 
driven back to the airport in St. Petersburg to avoid his plane 
being blown up. This was a secular movement. It was modeled 
explicitly on the Baltic aspirations.
    It was only once Russia started the killing, the massive 
killing, in 1994, 1995, and 1996, that you began removing the 
traditional elders of these type communities and people became 
available for mobilization by others, the same thing that 
happened in Afghanistan. Afghanistan, historically, was not a 
very Islamic place. The Taliban happened because of the Soviet 
destruction of the community in Afghanistan. And we find 
ourselves--and the Europeans, even worse, I would suggest--find 
ourselves blaming the victim. In other words, the Afghans are 
responsible for the Taliban. No, the Taliban happened because 
of what the Soviets and the Russians did in Afghanistan.
    What is happening in Chechnya, the Islamization of 
Chechnya, is exactly the same. It is an extraordinarily 
unfortunate thing. The image of the enemy, of Islam, has been 
put out by a number of people in Moscow because, guess what, 
they found it works. They found that if you say that here, it 
works. And it does.
    Dr. Balzer. Let me add a footnote to what Paul just said 
about Islam. The range of available Islams within the Russian 
Federation is quite great, including a brand of Islam that is a 
reformist Islam that blends European and Eastern philosophies. 
It's called ``The New Way,'' Jadidism. It was part of the turn 
of the 20th century politics. And it was born in Tatarstan. 
There are many different kinds of Islam--Islamic fundamentalism 
is not all one word. Therefore, it is possible that some of the 
more reformist Islamic tendencies can be grown--and, indeed, in 
Tatarstan, are being grown locally by new community centers, 
with mosque-centered, politics that are not radical. In other 
words, there is a way to look at the development of religion 
that is not necessarily fundamentalist when you do talk about 
Islam.
    The Chairman. Thank you. Senator Helms.
    Senator Helms. Mr. Chairman, I think that we have four 
distinguished, articulate witnesses here. And, for my part, and 
for my 10 minutes, I wish that you would interrupt me or each 
other and let us have a discussion among you four, with me sort 
of sitting up here cheering you on or whatever.
    Now, first thing before I do that, I turned around the 
chart. And on there, it has Milosevic's war in Kosovo and 
Putin's war in Chechnya. Now, Milosevic--death toll by war: 
10,500--and that's five-tenths of 1 percent, a half of 1 
percent. Putin's war: 30,000-35,000--three percent of the 
population. Detentions during the war: 2,000 for Milosevic; 
20,000 for Putin. Displaced persons caused by war: 1,500,000 
people, 75 percent of the population; and Putin: 600,000-
700,000, and that is 60 to 70 percent of the population. And 
the pre-war population: two million--that was the estimation in 
1999--and one million in Chechnya in 1999.


----------------------------------------------------------------------------------------------------------------
                                               Milosevic's War in Kosovo            Putin's War in Chechnya
----------------------------------------------------------------------------------------------------------------
Deaths Caused by War                      10,500 (00.5% of pop.)              30-35,000 (3% of pop.)
Detentions During War                     2,000+                              20,000+
Displaced Persons Caused by War           1,500,000 975% of pop.)             600-700,000 (60-70% of pop.)
Pre-War Population                        2,000,000 (estimated 1999)          1,000,000 (estimated 1999)
----------------------------------------------------------------------------------------------------------------


    Senator Helms. Now, my question to any of you--my 
understanding is that Russian forces have destroyed some 85 
percent of Chechen historic and religious sites in Chechnya, 
not to mention a library that was the central repository of 
Chechen historical documents. What do you believe is the 
strategy behind this destruction; and, further, is this 
destruction compatible with international obligations 
concerning the conduct of war? Anybody that wants to grab that 
one, I would like to hear.
    Mr. Goble. Senator, there have been suggestions in the 
Russian press that, ``If we cannot defeat the Chechens, we can 
destroy them.'' Destroying cultural artifacts, destroying 
cultural transmission mechanisms, is, under international law, 
genocide. This is an act of genocide by the Russian Government. 
It is incompatible with the undertakings Russia has signed with 
the United Nations, with OSCE, and a bunch of other places. It 
is--to destroy a nation's culture is genocide under 
international law. To destroy this many people is genocide 
under international law.
    If this action had been committed by any government that 
did not have nuclear weapons, the country that did it would be 
outside--would be considered beyond the pale. But a government 
that has nuclear weapons that does things like this is usually 
in a position to insist that it not be criticized too much. And 
we have now watched--in the last week, following the statement 
by Lord Russell-Johnston at PACE, which has been referred to 
several times this morning--Russians complaining that, ``PACE 
is putting too much pressure on us, and if the Europeans don't 
stop, we'll find a way to respond.'' I mean, that is the--you 
know, that is the response you are getting. As long--I think 
the Russians have violated all kinds of international 
agreements. I think if we do not hold----
    Senator Helms. All right. All right. Dr. Balzer, I saw you 
shaking your head. Tell my why.
    Dr. Balzer. Well, my reaction to this comparison is that it 
does a good deal of credit to the late human rights worker in 
Chechnya and the Balkans, Fred Cuny, who was murdered in 
Chechnya. And he began pointing out these kinds of comparisons 
that----
    Senator Helms. Are you saying it is false--that it is not 
accurate?
    Dr. Balzer. No, I am not at all. On the contrary, I am 
saying it does honor--the idea behind the comparison is an 
important one, and it does honor to the spirit of what Fred 
Cuny did, because he started making these comparisons precisely 
in order to show how much more violent Chechnya has been. And 
it also blows away stereotypes, because there was an assumption 
that our involvement, which was so much greater in the Balkans, 
was because the intensity of the war in the Balkans was so 
great.
    Senator Helms. I see. Dr. Dunlop, do you have a comment?
    Dr. Dunlop. Yes, I would like to make a couple of points, 
Senator. First, I recently published a study of human losses in 
the first war, the 1994 to 1996 war, in ``Central Asian 
Survey,'' and I concluded, in a very rough estimate, that 
46,500 people had died in that war, about 35,000 of them 
civilians. So we could add those figures to these new figures 
and get an even more catastrophic total.
    And second, I wanted to mention that the Lam Center for 
Pluralism in Grozny-Nazran, which works with the Institute for 
Democracy in Eastern Europe, recently issued a report on the 
fate of Chechnya's architecture and natural treasures in which 
they provide in great detail information on the destruction of 
the traditional tower monuments in Chechnya dating from the 
11th to the 17th century. These are ancient architectural 
monuments, many of which have been destroyed or damaged as a 
result of the military operations in Chechnya.
    Senator Helms. Dr. Solnick.
    Dr. Solnick. I just want to add one thing. While Chechnya 
is a predominantly Chechen republic, one of the more 
concentrated non-Russian Republics, I just want to emphasize 
that the population in the cities, particularly Grozny, was 
heavily mixed. And when the war came, especially the first war, 
but also the second war, the casualties were not only on the 
Chechen side, but on the Russian population living in the 
cities, especially the Russian population of Grozny. So while I 
think I agree with my colleagues that there is a racist 
character to this war, it is also true and consistent with the 
general brutality of the Russian Armed Forces, that the deaths 
have been seen on both sides.
    Senator Helms. Yes or no, a question I had. Do you think 
Mr. Putin will ever, ever be able to establish control over 
Chechnya, short of a genocidal outcome?
    Dr. Dunlop. No.
    Mr. Goble. No.
    Dr. Solnick. No.
    Senator Helms. No, no, no. Dr. Balzer?
    Dr. Balzer. There is a school of thought that discusses low 
intensity--and I'm not sure Chechnya really is so low 
intensity--wars that go on for a long, long time. And if 
Chechnya becomes something like Northern Ireland or other 
places that have had protracted multi-generation wars, then it 
is extraordinarily difficult for us to predict what will 
happen. However, the degree of destruction of the small Chechen 
people is so great that the only answer, short of that kind of 
horrifying long-term war, is negotiation.
    Senator Helms. Thank you, ma'am. Now, by the year 2015, 
it's estimated that as much as 20 to 25 percent of Russia's 
population will be Muslim. Now, what does the war in Chechnya 
today portend for a country where Muslims will, in the not too 
distant future, if that estimate is accurate, amount to nearly 
a quarter of the population? That is to say 25 percent. What's 
the future for Russia?
    Mr. Goble. As has been pointed out, Senator, there are many 
kinds of Muslims, and there will continue to be many kinds of 
Muslims. Some of the Muslims are going to be radicalized. It is 
worth noting that, in the last 3 months, President Putin has 
spent a great deal of time trying to sort out the internal 
contradictions within the leadership of the Russian Muslim 
community. There are two claimants for the top spot, and Putin 
desperately wants to establish a single Muslim entity, if you 
will. Islam not being a clerical religion, that's a little 
problematic, but the Russians and the Soviets did it, so Putin 
is trying to have one. It is not clear that the Muslims will 
not become increasingly important and, it is worth noting, 
Putin is----
    The Chairman. Putin what? I'm sorry, Paul.
    Mr. Goble. I'm sorry?
    The Chairman. You said it's not--they won't become 
increasingly what?
    Mr. Goble. Well, it's not clear that they will become 
increasingly radical.
    The Chairman. Right.
    Mr. Goble. But they will necessarily be increasingly 
important.
    The Chairman. I understand.
    Mr. Goble. Mr. Putin has been involved, also, in the 
organization of the Eurasian movement, the Refrock party and 
a--to try to have some kind of party that will rope in the 
Muslims. Whether that's going to work, we don't know, but these 
people are not happy about what's going on in Chechnya, and 
there is more draft resistance among Muslims.
    Senator Helms. Dr. Balzer, I noticed you, this time, were 
nodding your head. Do you agree with that?
    Dr. Balzer. Yes, indeed. Islam is increasingly important, 
and Islamic people have been organizing themselves. Whether 
this new Eurasian movement will come to pull in those Islamic 
leaders is another question. I think the Eurasian movement, and 
even in its past, has been more a Russian phenomena than a non-
Russian one.
    Senator Helms. Thank you. Dr. Dunlop.
    Dr. Dunlop. I wanted to add one point which I don't think 
we've addressed sufficiently so far, which is the percentage of 
Muslims in the North Caucasus region. This is a particularly 
volatile area, and there are very few Russians there. I 
believe, in Ingushetia, I read recently, there's only 2 percent 
Russians. And in Daghestan, 5 percent?
    Mr. Goble. Maybe as much as eight.
    Dr. Dunlop. Eight percent? Five to eight--there are very 
small numbers of ethnic Russians in these regions. And, of 
course, the violence, the fighting, is right on their doorstep. 
These are areas which are subject to more volatility, perhaps, 
than Muslim regions in central Russia and elsewhere. So what 
happens in Chechnya, and the resolution of the crisis there, 
directly impacts the other North Caucasus regimes. Furthermore, 
numerous Russian troops are based in these republics. And, 
according to recent reports, they've been behaving as badly in 
Ingushetia as they have in Chechnya. Recently, the President of 
Ingushetia, Ruslan Aushev, had to complain officially against 
what he called barbarism being perpetrated by these Russian 
troops in his own republic. So I think the Muslims in the North 
Caucasus region should be a subject of particular attention for 
us.
    Senator Helms. Mr. Chairman, would you allow Dr. Solnick to 
answer the question?
    The Chairman. Sure.
    Dr. Solnick. I just wanted to note that we may be more 
discriminating in distinguishing Caucasian and Muslim and North 
Caucasian than the Russian people are. This war is generating a 
lot of prejudice against dark-skinned Russian citizens. Not all 
dark-skinned Russian citizens are Muslims. So the social 
tensions generated from this war are not quite so neatly 
compartmentalized as we might portray them here.
    Senator Helms. Anybody want to say anything, in a sentence 
or two, further on this question?
    Mr. Goble. Could I just add one sentence?
    Senator Helms. Yes, sir.
    Mr. Goble. Last week, the leader of the Tatar community of 
Moscow pointed out that the Russian Government should not treat 
the Muslims in Moscow as immigrants because, as he said, ``We 
were here when this city was founded.''
    Senator Helms. OK. Thank you, Mr. Chairman.
    The Chairman. Senator Lugar.
    Senator Lugar. Thank you, Mr. Chairman. I join Senator 
Biden and Senator Helms in their compliments on four 
extraordinary papers--each tremendously helpful for our 
understanding and for all who may be listening to this hearing.
    I'm going to have two sets of questions. First of all, to 
prey upon your expertise to get a finer point on the economic 
effects on Russia of this war in Chechnya. And, second, the 
morale factor--which would include draft evasion. You have 
touched upon that with the Muslim community, but it seems much 
more widespread, including the phenomenon of living off the 
land and the violations that may be occurring in other sectors.
    In addition to this, I'll phrase the economic issue in this 
way: as commonly portrayed in our press it's suggested the 
Russian budget, as a total budget of the country--the Duma 
adopted a budget of about $50 billion in U.S. dollar terms and 
about $8 billion in defense spending. When Americans hear that, 
they think there must be a misprint--single-digit--because 
we're talking about $300 billion-plus for our defense budget. 
But nevertheless, some would say, well, you've masked this, 
because there's a lot of demonetization here, the living-off-
the-land factor, barter and so forth. But nevertheless, it's a 
very small budget for the country and a very small budget for 
defense, yet there's a pretty big war going on. Can anybody 
characterize how much of this budget is consumed in the war, or 
what the effects are upon the economy of Russia from the 
prosecution of this war?
    Dr. Dunlop. Well, Senator, as I mentioned, one--there was 
an article in a well-known Russian journal recently which 
calculated that $4 billion a year is being spent on the 
conflict. Much of this is presumably off the books--magic, if 
you want--but the money comes across. Pavel Felgenhauer, a 
leading Russian military journalist, a specialist in military 
affairs, also came up with the figure of about $4 billion a 
year, and that's just for the military operations. Obviously, 
if they try and restore anything in Chechnya, that's an 
additional expense. So given the annual budget you've cited, 
it's clear that an enormous sum of money, in Russian terms, is 
going for this war, more than--as the journalist I cited 
remarked, more than is being used to pay for the budgets of 
Moscow and Petersburg.
    Mr. Goble. Senator, as you have been one of the pioneers in 
costing out what the real expenses are in Russian budgets and 
Soviet budgets so that we'd have some basis for knowing about 
aid, so you know that translate--if you talk about the 
replacement cost--in other words, what it would cost us to do 
the same thing--the fact is that the number is several orders 
of magnitude, really, bigger than this. I think I'd like to 
address the morale issue. This week, it was reported that there 
are currently 5,000 Russian soldiers deserting every year, of 
whom about 80 percent are deserting from the North Caucasus 
military district. Prime Minister Kasyanov said last Friday 
that the brutalization of young men in the military----
    The Chairman. Hazing.
    Mr. Goble. But it's worse than hazing. This is not 
fraternity house stuff. This is beating people to the point of 
killing them--I suppose there are fraternities where that 
happens, too, but never mind--is increasing to the point that, 
and along ethnic lines, that the army is doing the same thing 
it did in Soviet times, which is radicalizing the non-Russians 
rather than integrating them, which is what the expectation 
was. In addition, because the soldiers are often not paid--one 
of the ways you get your budget down there is not to pay them. 
So what happens? The military sells weapons. It sells 
equipment. The Chechens were proud for a while on their 
Websites to tell you how many bottles of vodka it took to get a 
tank. And they figured that when it got down to one bottle of 
vodka for one tank, the Russians would go home, but it never 
got below two. So we're getting there, but not quite. This is 
having enormous morale problems. This is not a war the military 
wanted; this was a war the military got sucked into. The 
commanders were very unhappy about it. This was an FSB forced 
conflict in 1994 and again now. It was not what the army 
wanted. Armies do not like this kind of fighting. And one of 
the reasons there was the discussion by Nemstov and others 
about stopping at the Tarik, is that is when you stop before 
you get in the mountains. It is really easy to fight in the 
lowlands if you are an organized military force. You go into 
the mountains, you start taking casualties big time, and that 
is where they are, and they are not happy either. The army 
would be thrilled to be pulled out, and that is something which 
has an effect on the ability of the Moscow political leadership 
to use the Russian military for other things.
    Dr. Balzer. Let me add a footnote on morale and also on the 
draft. A lot of the republics, especially as the first cycle of 
the 1990's Chechnya war got started, said they weren't going to 
send their sons. Part of the points of contention with the 
center was that republics drafted laws saying, ``Our folks 
aren't going to go there. We don't want to fight our non-
Russian brethren, to fight the Chechen people.'' In the small 
Republic of Tyva, it was worded slightly differently. They 
said, ``We need all of our sons to help police our serious 
criminal activity in our own republic.''
    Dr. Solnick. If I could just add to that, I think Paul's 
comment may have left the impression that the Soviet Army was a 
brutal, hazing, violent institution that then got better and is 
now getting worse again.
    Mr. Goble. No, it has continued to be bad, but it has 
perhaps gotten worse in the North Caucasus.
    Dr. Solnick. Yes, I want to emphasize that. Just to put 
this in scale, this became an issue in the Soviet times during 
the Afghan war, and we're seeing a lot of the same syndromes 
now. In the late 1980's, there were on the order of 10 to 20 
non-combat deaths--and this is a conservative estimate--in the 
Soviet Army every day. These are people being beaten to death 
within brigades. These are people killing themselves to avoid 
being beaten to death. It's ethnic conflict. It's generational 
conflict. It's senior officers beating up young recruits. Now 
they are professional soldiers and conscripts who are violent 
toward each other. The morale is horrific in the Russian Army, 
and Chechnya is making it worse, not only because there doesn't 
seem to be a lot of regard for the lives of Russian soldiers 
there, but as the New York Times reported a couple of weeks 
ago, there seems to be an active trade in Russian soldiers 
themselves bartered from the army to the Chechens and then 
bought back by their mothers in some cases.
    Senator Lugar. Let me ask another line of questioning now. 
This one is based upon President Putin's comment the other day. 
There was an anti-NATO expansion expression, for example, but 
he really broadened that to say that, essentially, NATO is 
trying to exclude Russia, and is trying to have something less 
than Europe whole and free. This begs the question again and 
again, should Russia ever become a member of NATO. Under the 
circumstances we're discussing today, probably not, because the 
eligibility criteria really wouldn't permit that. Taking a more 
friendly view down the trail, however, clearly we're going to 
be discussing in this country as well as with our European 
friends, the Baltic States and their inclusion in NATO next 
year. The argument will be, once again, that this would 
antagonize Russia and make it unstable. On the other hand, 
leaving aside the Russian attitude, what would it take or what 
criteria are there for Russia to become a member so that they 
don't feel that anybody is carving up their territory and that, 
as a matter of fact, we want them. As historians of Russia, is 
this simply inconceivable. The cultural traditions, the 
institutions that are there don't really permit a realistic 
appraisal of Russian membership.
    Mr. Goble. Senator, it's worth noting, the next sentence in 
Mr. Putin's comment about NATO. He said, ``We had hoped that 
the OSCE would become the basis for a pan-European security 
arrangement in place of NATO, but the OSCE has turned into 
nothing more than a venue for criticizing us and criticizing 
our central Asian friends.'' If Russia wants to live by the 
rules of an organization, it can join. The tragedy is that 
Russia has insisted that it doesn't have to follow the rules in 
order to get in, and that's been true at the Council of Europe, 
that's been true a whole lot of times. The Russians have said, 
``We're important. And besides, if you don't take us in, we'll 
be unhappy.''
    Dr. Solnick. I must confess, when I think about this, I 
find it as close to an intractable problem as one can find, and 
I'm reminded--during the NATO bombings of Kosovo, when Russia 
objected and said, ``You have been saying that NATO is not an 
offensive force, and here you are using it in an offensive 
manner,'' the American response at the time--or the NATO 
response at the time was, ``Well, yes, but this is a European 
matter. You need not fear, we would never intervene in a case 
that is clearly within your sphere of influence. For instance, 
let us say, Chechnya. That would be off limits.'' So I think 
it's just an illustration of the sort of constraints on 
American policy that would come along with conceding of that 
enlargement of NATO.
    Dr. Dunlop. I would add that I think that the Russia we see 
today isn't inevitably the Russia that would have emerged from 
the early 1990's from the independence of Russia. I personally 
think it's a tragedy what's happened. But I think that Mr. 
Putin is a person who is capable of instituting change if he 
feels that it's to his advantage and that of the country. That 
is, I believe he could be induced to recognize international 
law. But very heavy pressure has to be brought to bear on him. 
On the otherhand, to give way to what he's doing, to 
countenance it, is entirely the wrong approach, in my opinion.
    Senator Lugar. Maybe such as our giving criteria, one of 
which would be to stop the war in Chechnya.
    Dr. Dunlop. Exactly.
    Senator Lugar. Or stop brutalizing people or--in other 
words, you may be right that he's effectively a good leader. 
But without the right guidelines, they're unlikely to get to 
the right conclusions.
    Dr. Dunlop. Right, and that's why I supported Senator 
Helms' concurrent resolution.
    Senator Lugar. Thank you.
    The Chairman. Let me followup with a couple of questions, 
and anybody on the panel here as well as my colleagues can 
please interrupt.
    Assume for the moment that Chechnya, by whatever means, 
achieves its independence. Chechnya's off the table. Is the 
Russian Federation, as presently in place, capable of being 
governed? I look at the way in which it came about after the 
demise of the Soviet Union and think to myself, as a student of 
government, how, in God's name, could you possibly govern under 
the set of relationships that exists among the various 
republics, autonomous regions, and the central government, even 
on something as simple as taxes? I mean if you sit down, as a 
political scientist, and try to figure out how you're going to 
make this country work, this Federation work, is it possible?
    Mr. Goble. Senator, if you are saying, can a country move 
along and make compromises and constantly have to adjust 
itself, Russia should be capable of doing that. If----
    The Chairman. No, that's not what I'm saying. I'm saying, 
as the Federation is presently----
    Mr. Goble. I would suggest that--when we say ``as 
presently,'' I don't think there's one thing there. There are a 
bunch of different arrangements, and this is a country that 
Putin is trying to have one arrangement for. The great French 
Sovietologist Alain Besancon once said that Russia's tragedy is 
that it was three empires, not one, and that it had to govern 
them all in the same way. It was an Austro-Hungarian in the 
west, it was an overseas empire in central Asia, and it was 
like the American empire in the east, in the Aboriginal 
populations in Siberia. If you govern them all the same way, 
you create one kind of political tension. If you govern them 
differently, you create another kind of political tension. But 
that does not mean that it is not possible to have a complex 
way. I believe that the stronger the regions are, the stronger 
Russia can become. Putin, unfortunately, I think, believes the 
weaker the regions are is the only way for the future. I think 
he's wrong, and I think trying to take power back from the 
regions, which he's trying to do, is going to create political 
instability. I don't think there is a snapshot. That's what I'm 
trying to say.
    Dr. Solnick. If I may, I think it's important to remember 
that we're 10 years on from independence in Russia. Ten years 
on from American independence, if there were to have been a 
hearing at the court of the czar, they would have concluded 
that the United States was a country unable to collect taxes, 
unable to break down interstate trade barriers, clearly pulled 
in different directions. The south was under the influence of 
the Spanish empire. There were problems with Canada in the 
north. The British were making inroads once again. It looked 
pretty close to a hopeless situation. The nation reinvented 
itself a year later. The nation reinvented itself again under 
Jefferson.
    So I think it's important to remember, in the scope of 
these sort of post-imperial transformations, that it's very, 
very early in the Russian case. And the centrifugal forces that 
would fragment Russia are really not all that great--again, in 
world historical terms. It's a badly governed country, no 
doubt. It's a mess, but it's not exactly flying apart at the 
seams.
    The Chairman. Anyone else?
    Dr. Dunlop. Yes, I would add that I consider it unfortunate 
that there appears to be a kind of a rollback--we can disagree 
to what extent it's happening, but there's definitely a 
rollback away from federalism occurring, I think, at this point 
under Mr. Putin--and I believe that's unfortunate for Russia, 
because a country that size needs decentralization. It 
obviously has to be able to collect taxes and do other normal 
things that a modern state does. But to have elected Governors, 
to take one example is an excellent idea. Many in Putin's 
entourage, however, believe that's a bad idea and that they 
should have appointed Governors from Moscow. To run that vast 
country with bureaucrats appointed in Moscow, in my view, would 
be a very negative phenomenon. And therefore, I think that the 
tendency, which is in its beginning stages, that we're seeing 
now, is an unfortunate one.
    Dr. Balzer. I would very much agree with what John Dunlop 
just said--what everyone has said--but also add that the 
struggling of Federal rights and powers is being discussed and 
negotiated right now. We can sympathize with what President 
Putin inherited. And there are some really almost ironic 
incidents. Recently, the leader of the Republic of Marii-El, 
hoping to curry favor with President Putin, unilaterally 
rejected his republic's power-sharing treaty with the central 
government, along with the heads of three Russian-led regions. 
He could see that a new commission was formed to do exactly 
what you are calling attention to, to discuss the divisions of 
powers. It has just been established in 2001 and has, as one of 
its goals, the cancellation of these treaty arrangements. So he 
was trying to get a jump on that.
    This is a very interesting commission to watch. A lot of 
what worked in the past, in the 1990's, was calculated 
ambiguity as arrangements were fought out or contended. And now 
they're trying to----
    The Chairman. Don't use the word ``ambiguity.'' My 
colleague doesn't like that word.
    Dr. Balzer. Oh, dear.
    Well, what I'm actually trying to say is that people were 
trying to use it then, but it has come back to haunt them. 
They're trying now to be more specific about what those power-
sharing arrangements really will be. So that is a commission to 
watch, as is all of the negotiation process going on currently. 
It is unwieldy, but it is happening, including some 
arrangements, even for changing borders and tax structures. 
Some local area arrangements are being negotiated inside 
particular regions--Altai Krai with Altai Republic. Well, the 
republic just rejected an overture. But in the case of 
Buriatia, Buriatia has merged its taxation with its wider 
Irkutsk region. This seems to be an agreement that is actually 
working on the ground and not started by the center.
    The Chairman. We have only scratched the surface here 
today. That is why I want to have a series of these hearings. I 
am reminded by Dr. Haltzel behind me that in 1997, I was 
meeting in Moscow with General Lebed and he was pounding the 
table, you know, being very tough. I will never forget what he 
said about Chechnya, where he was given credit for ending the 
first war, and he said--I am paraphrasing, but it is close to a 
quote--he said, ``I don't care if it is independent. It doesn't 
matter to me.'' Now, he came out of that Afghanistan 
experience. He was a military guy, and I remember being 
impressed by what I believed to be the earnestness of his 
comment. I left there thinking he really did not care whether 
or not Chechnya was independent.
    I would also note for the record, as the fellow who has 
been held primarily responsible in the Senate for our 
involvement in the Balkans, I would point out that 250,000 
people were killed in Bosnia, which is 5 percent of the 
population. I do not in any way denigrate the point being made 
here. I just do not want people leaving here thinking that the 
Balkan wars and Milosevic's efforts quote, ``only killed 10,500 
people.'' They are responsible for over 300,000 people dead. 
That does not in any way undercut the point that Senator Helms 
is making about what is going on in Chechnya. Do you have any 
comments?
    Senator Helms. Yes, you said something about ambiguity.
    I don't think Washington could survive without ambiguity.
    It is sort of like that old expression, ``When promulgating 
your esoteric cogitations or articulating your superficial 
sentimentalities, beware of platitudinous,'' et cetera.
    Now, having said that----
    The Chairman. Well said.
    Senator Helms [continuing]. Mr. Chairman, thank you for 
calling this hearing. Thank you, gentlemen and lady, for 
coming. Now, please--you are going to get questions in writing 
from the Senators who were not able to come. I hope you will 
answer them, because we are going to make it part of the 
record. And I ask unanimous consent, Mr. Chairman, that the 
proceedings of this hearing be printed.
    The Chairman. Without objection, they will be. And I myself 
have additional questions to ask. I really do know that this is 
not easy. I mean, you do not come here just off the top of your 
head and plop down here--as much as you know about this 
subject--and we do appreciate the effort and the commitment, 
and I can assure you we will be calling on all of you again. 
That is both the good news and the bad news.
    Thank you very, very much. We are adjourned.
    [Whereupon, at 12:10 p.m., the hearing was adjourned.]

                                   <all>

</pre></body></html>
